NO. __________
IN THE

Supreme Court of the United States
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as Governor of
Nevada; AARON FORD, in his official capacity as
Attorney General of Nevada; FRANK HUNEWILL, in
his official capacity as Sheriff of Lyon County,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
BEFORE JUDGMENT
KRISTEN K. WAGGONER
JOHN J. BURSCH
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(202) 393-8690
kwaggoner@ADFlegal.org
jbursch@ADFlegal.org

DAVID A. CORTMAN
Counsel of Record
RORY GRAY
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774
dcortman@ADFlegal.org
rgray@ADFlegal.org

Counsel for Petitioner
(additional counsel listed on inside cover)

RYAN J. TUCKER
JEREMIAH J. GALUS
GREGG WALTERS
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
rtucker@ADFlegal.org
jgalus@ADFlegal.org
gwalters@adflegal.org

JASON D. GUINASSO
500 Damonte Ranch Pkwy
Suite 980
Reno, NV 89521
(775) 853-8746
jguinasso@hutchlegal.com

Counsel for Petitioner

i
QUESTIONS PRESENTED
Attempting to combat the spread of COVID-19,
Nevada Governor Steve Sisolak issued a series of
executive orders that restrict personal liberties. The
subject of this petition are the Governor’s orders
limiting church gatherings. For example, Directive
021 allowed large groups to assemble in close quarters
for unlimited time-periods at casinos, restaurants,
indoor amusements parks, bowling alleys, water
parks, pools, arcades, and more, subject only to a 50%fire-code-capacity limit. In contrast, the directive
limited gatherings at places of worship to no more
than 50 people, whatever their facilities’ size or the
precautions they take. So if a casino and a church both
had capacity for 2,000 persons, the casino could
entertain 1,000 gambling patrons while the church
could only host 50 of its faithful for worship. Directive
033 has, for now, superseded Directive 021 but still
treats places of worship less well than their secular
counterparts. Such unequal treatment requires strict
scrutiny, yet the Governor did not try to offer a
compelling justification for the unequal treatment.
The Governor’s disparate treatment of churches
compared to secular venues violates this Court’s First
Amendment precedents and frames two issues of
immense jurisprudential significance that will impact
this case and many like it across the country:
1. Whether the Governor’s favoring of secular
over religious gatherings violates the Free Exercise
Clause.
2. Whether the Governor’s favoring of secular
over religious gatherings violates the Free Speech and
Assembly Clauses.

ii
PARTIES TO THE PROCEEDING
Petitioner is Calvary Chapel Dayton Valley, a
Christian church in Dayton, Nevada, an unincorporated region of Lyon County.
Respondents are Steve Sisolak, in his official
capacity as Governor of Nevada; Aaron Ford, in his
official capacity as Attorney General of Nevada; and
Frank Hunewill, in his official capacity as the Sheriff
of Lyon County.
LIST OF ALL PROCEEDINGS
U.S. Supreme Court, No. 19A1070, Calvary
Chapel Dayton Valley v. Sisolak, application for an
injunction pending appellate review denied July 24,
2020.
U.S. Court of Appeals for the Ninth Circuit, No.
20-16169, Calvary Chapel Dayton Valley v. Sisolak,
motion for an injunction pending appeal denied July
2, 2020, and motion to dismiss the appeal as moot
denied October 26, 2020.
U.S. District Court for the District of Nevada, No.
3:20-cv-00303, Calvary Chapel Dayton Valley v.
Sisolak, order denying motion for preliminary
injunction entered June 11, 2020, and motion for
injunction pending appeal denied June 19, 2020.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING ........................... ii
LIST OF ALL PROCEEDINGS ................................. ii
TABLE OF AUTHORITIES .................................... vii
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL PROVISIONS
AND STATUTES .................................................. 2
INTRODUCTION ...................................................... 3
STATEMENT OF THE CASE ................................... 8
A. Calvary Chapel Dayton Valley and its
religious services ............................................. 8
B. Nevada’s unequal treatment of churches ..... 10
C. Proceedings .................................................... 14
REASONS FOR GRANTING THE WRIT............... 18
I. The district court’s ruling is manifestly wrong. 18
A. The district court’s ruling is in direct
conflict with multiple facets of this Court’s
Free Exercise jurisprudence. ........................ 18
B. The district court’s ruling conflicts with
this Court’s free-speech and free-assembly
precedents, which bar favoring secular
views and gatherings over religious ones. .... 27
C. The Governor’s justifications for his
discrimination do not withstand scrutiny.
Some amplify the constitutional violation. .. 31

iv
D. Directive 021 does not satisfy this Court’s
requirements for strict scrutiny.................... 36
E. Calvary Chapel satisfies the other
preliminary-injunction requirements. .......... 37
II. This case is an ideal vehicle to solve the
nationwide problem of government
discrimination against churches as a COVID19 response strategy. .......................................... 38
CONCLUSION ......................................................... 40

v
APPENDIX TABLE OF CONTENTS
United States District Court
for the District of Nevada
Order Denying Emergency Motions for a
Temporary Restraining Order and
Preliminary Injunction
Issued June 11, 2020................................................ 1a
United States District Court
for the District of Nevada
Order Denying Motion to Stay Pending
Appeal
Issued June 19, 2020.............................................. 13a
United States Supreme Court
Order Denying Application for Injunctive
Relief
Issued July 24, 2020 .............................................. 19a
United States Court of Appeals
for the Ninth Circuit
Order Denying Emergency Motion for
Injunctive Relief Pending Appeal
Issued July 2, 2020 ................................................ 46a
United States Court of Appeals
for the Ninth Circuit
Order Denying Motion to Dismiss Appeal
Issued October 26, 2020 ......................................... 47a
U.S. Constitutional Provisions .............................. 49a

vi
State of Nevada, Governor Sisolak
COVID-19 Declaration of Emergency
Directive 021
Issued May 28, 2020 .............................................. 50a
State of Nevada, Governor Sisolak
COVID-19 Declaration of Emergency
Directive 033
Issued September 30, 2020 .................................... 84a

vii
TABLE OF AUTHORITIES
Cases
Antietam Battlefield KOA v. Hogan,
No. 1:20-cv-01130, 2020 WL 2556496 (D. Md.
May 20, 2020) ....................................................... 22
Blackhawk v. Pennsylvania,
381 F.3d 202 (3d Cir. 2004) ........................... 19, 21
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) ................................... passim
Calvary Chapel of Bangor v. Mills,
459 F. Supp. 3d 273 (2020) ............................ 22, 38
Capitol Square Review & Advisory Board v.
Pinette,
515 U.S. 753 (1995) .............................................. 28
Cassell v. Snyders,
458 F. Supp. 3d 981 (N.D. Ill. 2020) .................... 38
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah,
508 U.S. 520 (1993) ....................................... passim
City of Ladue v. Gilleo,
512 U.S. 43 (1994) ................................................ 29
Cross Culture Christian Center v. Newsom,
No. 2:20-cv-00832, 2020 WL 2121111 (E.D.
Cal. May 5, 2020) ................................................. 22
Cruzan v. Director, Missouri Department of
Health,
497 U.S. 261 (1990) .............................................. 35

viii
Elim Romanian Pentecostal Church v. Pritzer,
962 F.3d 341 (7th Cir. 2020) ................................ 38
Elrod v. Burns,
427 U.S. 347 (1976) .............................................. 37
Espinoza v. Montana Department of Revenue,
140 S. Ct. 2246 (2020) ...........................6, 26, 33, 35
Food & Drug Administration v. American
College of Obstetricians & Gynecologists,
___ S. Ct. ____, 2020 WL 5951467 (Oct. 8,
2020) ..................................................................... 39
Friends of the Earth, Inc. v. Laidlaw
Environmental Services (TOC), Inc.,
528 U.S. 167 (2000) .......................................... 7, 17
Good News Club v. Milford Central School,
533 U.S. 98 (2001) ................................................ 28
Harvest Rock Church, Inc. v. Newsom,
__ F.3d __, 2020 WL 5835219 (9th Cir. Oct. 1,
2020) ..................................................................... 38
High Plains Harvest Church v. Polis,
2020 WL 4582720 (D. Colo. Aug. 10, 2020) ........ 39
Hosanna-Tabor Evangelical Lutheran Church &
School v. E.E.O.C.,
565 U.S. 171 (2012) .............................................. 37
Jacobson v. Massachusetts,
197 U.S. 11 (1905) ................................................ 35
Kingdomware Technologies, Inc. v. United States,
136 S. Ct. 1969 (2016) ...................................... 7, 17
Legacy Church, Inc. v. Kunkel,
___ F. Supp. 3d ____, 2020 WL 3963764
(D.N.M. July 13, 2020)......................................... 39

ix
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission,
138 S. Ct. 1719 (2018) ...................................... 3, 32
Metromedia, Inc. v. City of San Diego,
453 U.S. 490 (1981) .............................................. 28
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ........................................ 29, 30
Ohralik v. Ohio State Bar Association,
436 U.S. 447 (1978) .............................................. 27
Reed v. Town of Gilbert,
576 U.S. 155 (2015) ........................................ 28, 36
Roberts v. Neace,
958 F.3d 409 (6th Cir. 2020) ................................ 38
Rosenberger v. Rector & Visitors of University of
Virginia,
515 U.S. 819 (1995) .............................................. 29
Soos v. Cuomo,
___ F. Supp. 3d ____, 2020 WL 3488742
(N.D.N.Y. June 26, 2020)......................... 22, 35, 38
Sorrell v. IMS Health, Inc.,
564 U.S. 552 (2011) .............................................. 28
South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020) ................................... passim
South Bay United Pentecostal Church v. Newsom,
959 F.3d 938 (9th Cir. 2020) ................................ 35
Southern Oregon Barter Fair v. Jackson County,
372 F.3d 1128 (9th Cir. 2004) .............................. 30
Spell v. Edwards,
962 F.3d 175 (5th Cir. 2020) .......................... 34, 35

x
Trinity Lutheran Church of Columbia, Inc. v.
Comer,
137 S. Ct. 2012 (2017) .......................................... 18
United States v. Raines,
362 U.S. 17 (1960) ................................................ 37
Whitney v. California,
274 U.S. 357 (1927) .............................................. 29
Statutes
28 U.S.C. 1254(1) ....................................................... 2
28 U.S.C. 1292(a)(1) ................................................... 2
28 U.S.C. 1343 ............................................................ 1
28 U.S.C. 2101(e)........................................................ 2
28 U.S.C. 2201–02 ...................................................... 1
Other Authorities
Carla K. Johnson, Closing bars to stop
coronavirus spread is backed by science, AP
News (July 2, 2020), https://bit.ly/2W3qswn ...... 23
Carson Plains Casino,
https://carsonplainscasino.net ............................. 24
Colton Lochhead, Sisolak, elected Nevada
officials discuss systemic racism, reform, Las
Vegas Review-Journal (June 5, 2020),
https://bit.ly/31JhKHr ......................................... 13
Jackie Valley & Riley Snyder, Sisolak, elected
officials pledge to address systemic racism and
society’s ‘double standard’ toward black
protestors, The Nevada Independent (June 5,
2020), https://bit.ly/2Z6bBU5 .............................. 13

xi
Kelsey Penrose, Gov. Sisolak makes appearance
at Black Lives Matter Protest in Carson City,
CarsonNOW.org (June 19, 2020),
https://bit.ly/2VKTS2p ........................13, 27, 29, 35
MapQuest, http://mapq.st/3iXbkuo ......................... 24
Nevada Health Response, COVD-19 Mitigation
& Management Task Force adjusts criteria
used to monitor elevated risk of transmission
of COVID-19 in Nevada counties (Oct. 8,
2020), https://bit.ly/3jPaKy7 ................................ 23
Sabrina Schnur, Juneteenth rally, march on Las
Vegas Strip draw scores of protestors, Las
Vegas Review-Journal (June 19, 2020),
https://bit.ly/2NZ9Mlm ........................................ 26
Shannon Miller, Nevada COVID-19 Task Force
says Clark County bars must remain closed,
Fox 5 News (Aug. 20, 2020),
https://bit.ly/3eqJDs7 ........................................... 24

1
DECISIONS BELOW
The district court’s June 11, 2020 unreported
order denying Calvary Chapel Dayton Valley’s motion
for preliminary injunction is available at 2020 WL
4260438 and reprinted at App.1a–12a.
The district court’s June 19, 2020 unreported
order denying Calvary Chapel’s motion for an
injunction pending appeal is available at 2020 WL
3404700 and reprinted at App.13a–18a.
The Ninth Circuit’s July 2, 2020 unreported order
denying Calvary Chapel’s motion for an injunction
pending appeal is available at 2020 WL 4274901 and
reprinted at App.46a.
This Court’s July 24, 2020 decision denying
Calvary Chapel’s application for an injunction
pending appellate review is reported at 140 S. Ct.
2603 and reprinted at App.19a–45a.
The Ninth Circuit’s October 26, 2020 decision
(clerk order) denying Respondents’ motion to dismiss
the appeal as moot is not reported but is printed at
App.47a–48a.
STATEMENT OF JURISDICTION
Calvary Chapel Dayton Valley filed its verified
amended complaint challenging Directive 021 under
the First Amendment’s Free Exercise, Free Speech,
and Free Assembly Clauses on May 28, 2020. That
same day, the church filed an emergency motion for a
temporary restraining order or preliminary injunction. The district court had jurisdiction under 28
U.S.C. 1331 and 1343, and authority to issue declaratory and injunctive relief under 28 U.S.C. 1343 and
2201–02.

2
The United States District Court for the District
of Nevada denied Calvary Chapel’s motion on June
11, 2020. On June 15, 2020, the church filed a timely
notice of appeal. The United States Court of Appeals
for the Ninth Circuit had jurisdiction over Calvary
Chapel’s interlocutory appeal under 28 U.S.C.
1292(a)(1), and oral argument is scheduled for
December 8, 2020.
This Court’s jurisdiction is invoked under 28
U.S.C. 1254(1) and 2101(e). Because this matter is
time sensitive, Calvary Chapel files this petition
before the Ninth Circuit has ruled. Calvary Chapel
expects that by the time the Court considers the
petition, the Ninth Circuit will have issued an
opinion. Either way, as explained below, the petition
warrants this Court’s immediate review and resolution before the end of the Court’s 2020 Term.
PERTINENT CONSTITUTIONAL
PROVISIONS AND STATUTES
The relevant constitutional provisions and gubernatorial executive orders appear at App.49a–104a.

3
INTRODUCTION
“The Constitution guarantees the free exercise of
religion. It says nothing about the freedom to play
craps or blackjack, to feed tokens into a slot machine,
or to engage in any other game of chance.” Calvary
Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603,
2603–04 (2020) (Alito, J., dissenting from denial of
appellate injunction). Yet Respondent Nevada
Governor Sisolak has allowed large groups to
assemble in close quarters for unlimited time-periods
at casinos, indoor amusement parks, restaurants,
arcades, and more, subject to a 50%-fire-code-capacity
limit, all while limiting places of worship to no more
than 50 people, whatever their facilities’ size or the
precautions they take.
The Free Exercise Clause subjects such discriminatory restrictions on religious exercise—indeed,
even “subtle departures” from neutrality—to strict
scrutiny. Masterpiece Cakeshop, Ltd. v. Colo. Civil
Rights Comm’n, 138 S. Ct. 1719, 1731 (2018) (quoting
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, 534 (1993)). And here, “the
departure is hardly subtle. The Governor’s directive
specifically treats worship services differently from
other activities that involve extended, indoor gatherings of large groups of people.” Calvary Chapel, 140 S.
Ct. at 2605 (Alito, J., dissenting). Indeed, the
Governor’s better treatment of casinos—where “large
groups of people gather in close proximity for
extended periods of time,” S. Bay United Pentecostal
Church v. Newsom, 140 S. Ct. 1613, 1613 (2020)
(Roberts, C.J., concurring in the denial of application
for injunctive relief)—by itself shows that the
directive is unconstitutional.

4
It’s not as though casino patrons do a better job of
social distancing than churchgoers. Just before casino
doors reopened at midnight on June 4, 2020, the
crowds looked like this [ER 170]:

Shortly after the doors opened, the scene looked
like this [ER 168]:

5
And this [ER 166]:

“The idea that allowing Calvary Chapel to admit
90 worshippers presents a greater public health risk
than allowing casinos to operate at 50% capacity is
hard to swallow, and the State’s efforts to justify the
discrimination are feeble.” Calvary Chapel, 140 S. Ct.
at 2606 (Alito, J., dissenting). And the State’s better
treatment of secular assemblies reaches well beyond
casinos to include restaurants, indoor amusement
parks, bowling alleys, water parks, pools, arcades,
and more. To top it off, state officials have also
effectively exempted altogether mass protests and
polling locations from the Governor’s directive.
In short, the Governor’s directive treats “comparable secular gatherings . . . more leniently” than
houses of worship. S. Bay, 140 S. Ct. at 1613 (Roberts,
C.J., concurring). This discrimination against religious assemblies and speech for no rational—let alone
compelling—reason violates the First Amendment.
See Espinoza v. Mont. Dep’t of Revenue, 140 S. Ct.

6
2246, 2254 (2020) (the Free Exercise Clause “protects
religious observers against unequal treatment”)
(citation omitted). If the Governor deems it acceptable
for secular assemblies to occur at 50% capacity at
casinos, restaurants, theme parks, and more, he must
apply the same rule to constitutionally protected
worship services too.
This case is an ideal vehicle to so hold. Governor
Sisolak’s directive “blatantly discriminates against
houses of worship and thus warrants strict scrutiny
under the Free Exercise Clause.” Calvary Chapel, 140
S. Ct. at 2607 (Alito, J., dissenting). The directive
“fares no better under the Free Speech Clause,” given
the Governor’s restrictions on churches while giving
free reign to favored public protestors. Ibid. And
“Nevada does not even try to argue that the directive
can withstand strict scrutiny.” Id. at 2608. The
Governor’s violation of the First Amendment is plain.
And the Court’s holding here will guide lower courts
in resolving many other cases in which government
officials have treated churches worse than their
comparable secular counterparts.
Time is of the essence. If the petition is not
resolved by the end of the 2020 Term, churches and
worshippers will continue to endure unconstitutional
orders like Governor Sisolak’s for a minimum of 15-18
months. That is why Calvary Chapel has filed this
petition under Rule 11, before receiving a merits
ruling from the Ninth Circuit. It is likely the Ninth
Circuit will issue its opinion before this Court
considers the petition at conference, given that the
matter is scheduled for oral argument in the Ninth
Circuit on December 8, 2020. Either way, the Court
should not delay its consideration of the petition.

7
The need for review is enhanced by the fact that,
in late September 2020, Governor Sisolak issued a
new executive order, Directive 033, that allows places
of worship to host the lesser of 250 people or 50% firecode capacity. App.89a–90a. This new edict continues
to disadvantage churches. Directive 033 allows even
more secular venues, such as museums, art galleries,
zoos, and aquariums, to assemble at 50% fire-code
capacity with no hard cap. App.101a (§ 15). And it
allows convention centers to host four times as many
attendees—up to 1,000—as churches. So the
Governor’s preference for secular entities over
religious entities remains. App.99a–101a (§ 13).
What’s more, the Governor is free to go back to the
previous order at any time.
Ignoring these realities, the Governor moved to
dismiss Calvary Chapel’s appeal as moot. The Ninth
Circuit quickly denied that gambit, holding that
“‘voluntary cessation of a challenged practice does not
deprive a federal court of its power to determine the
legality of the practice’ if the challenged practice is
‘reasonably . . . expected to recur.’” App.47a (quoting
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs.
(TOC), Inc., 528 U.S. 167, 189 (2000)). Additionally,
the Ninth Circuit concluded, this is a case “capable of
repetition, yet evading review.” App.47a–48a (quoting
Kingdomware Techs., Inc. v. United States, 136 S. Ct.
1969, 1976 (2016)).
In sum, Governor Sisolak has consistently
doubled down on religious discrimination, and he and
other government officials around the country will
continue to do so until this Court intervenes.
Certiorari is warranted.

8
STATEMENT OF THE CASE
A. Calvary Chapel Dayton Valley and its
religious services
Calvary Chapel Dayton Valley is a Christian
church in Dayton, Nevada, an unincorporated region
of Lyon County. ER 659, 665–66. Since 2006, the
church has sought to love, teach, and reach Dayton
Valley for Christ. Id. at 653–55. Before the COVID-19
outbreak, Calvary Chapel held two Sunday services,
each accommodating up to 200 people. Id. at 659, 669.
But Governor Sisolak’s directives have barred the
church from holding anything resembling its normal
religious gatherings for more than seven months. Id.
at 658–59.
At the onset of the COVID-19 outbreak—before
the Governor entered his March 24, 2020 directive
capping gatherings at 10 people, ER 721–23—Calvary
Chapel temporarily suspended in-person worship
services in favor of streaming services online, id. at
656. But this emergency measure caused real
spiritual harm. For example, some people who attend
Calvary Chapel were unable to view online services,
leaving them vulnerable and alone. Id. at 654.
Nor does the church believe that virtual or drivein services meet the Bible’s command that Christians
gather for corporate, prayer, worship, and scriptural
teaching. ER 654. “Ekklesia,” the Greek word in the
New Testament translated as “church,” means
“assembly.” Id. And Calvary Chapel views church
gatherings as sacred assemblies that embody Christ
on earth and are the best expression of “His image
and likeness.” Id. If a body of believers fails to hold inperson gatherings, Calvary Chapel views it as ceasing
to be a church in the biblical sense.

9
That does not mean Calvary Chapel will put its
flock or the public at risk. Because of COVID-19, the
church developed a comprehensive health and safety
plan that (1) limits in-person services to 50% of firecode-capacity (roughly 90 people per service), (2)
requires six feet of distance between members of
different families and households, (3) restricts
gatherings to only Sundays and Wednesdays, and
(4) reduces the length of Sunday services from 90 to
45 minutes. ER 659–60, 669–70. Calvary Chapel’s
rigorous safety plan also called for:
•

asking people to arrive no more than 25
minutes early;

•

organizing parking attendants to direct cars;

•

guiding attendees to a designated entrance;

•

ensuring one-way traffic via a first-in-last-out
model and placing signs on walls and floors;

•

leaving a half-hour gap between services in
which to clean and sanitize the sanctuary,
hallways, bathrooms, and common surfaces;

•

advising attendees of proper social-distancing
methods;

•

directing attendees to seating that provides at
least six feet of separation between families
and those in different households;

•

making hand-sanitizer
accessible;

•

prohibiting handouts or passing other items
between persons;

•

stopping the service of coffee and snacks;

stations

readily

10
•

limiting restroom use to one person at a time;

•

using prepackaged Communion elements;

•

directing attendees out of the building; and

•

instructing people not to congregate in the
building.

ER 659–60, 669–70.
After Governor Sisolak ignored Nevada churches’
pleas for equal treatment, see ER 598–612, 614–29,
Calvary Chapel sued, id. at 662–81. Even though the
church voluntarily adopted rigorous safeguards and
complied with the Governor’s general safety
mandates—including that people socially distance
and wear a face covering in public spaces—Governor
Sisolak refused to allow more than 50 people to attend
Calvary Chapel’s services. At the same time, the
Governor exempted much larger secular assemblies
where crowds gather in close proximity for extended
periods at casinos, gyms, restaurants, certain bars,
indoor amusements parks, bowling alleys, water
parks, pools, and arcades, not to mention mass
protests. App.64a–66a, 69a–76a (§§ 20–22, 25, 26, 28,
29); ER 160–64, 253–56.
B. Nevada’s unequal treatment of churches
Governor Sisolak has treated houses of worship
far worse than secular places where large, extended,
and close gatherings occur day-in-and-day-out.
Directive 021 ordered “[c]ommunities of worship and
faith-based organizations” to limit “indoor in-person
services . . . so that no more than fifty persons are
gathered, and all social distancing requirements are
satisfied.” App.58a–59a (§ 11). The directive also
ordered churches to “stagger services so that the

11
entrance and egress of congregants for different
services [does] not result in a gathering greater than
fifty persons.” App.59a (§ 11(3)). Violating Directive
021 would have subjected Calvary Chapel to civil and
criminal penalties. App.82a–83a (§ 39).
But the directive also allowed casinos and other
gaming establishments to reopen under rules set by
the Nevada Gaming Control Board. App.80a–
81a (§ 35); see also ER 576–583 (gaming board rules).
For five months, casinos have hosted hundreds to
thousands of people at a time subject only to a 50%
occupancy limit on each gaming area. ER 581. And on
its face, Directive 021 allowed six more types of
comparable secular assemblies to thrive at up to 50%
capacity with no 50-person cap: (1) restaurants
App.69a–70a (§ 25); ER 748 (§ 17); (2) amusement
parks and theme parks, App.65a (§ 21); (3) bowling
alleys and arcades, App.64a–65a (§ 20); (4) breweries,
distilleries, and wineries, App.70a–71a (§ 26);
(5) gyms, fitness facilities, and fitness studios,
App.71a–73a (§ 28); and (6) water parks and other
public aquatic venues, App.73a–74a (§ 29).
The Governor even treated cinemas more favorably than churches. Directive 021 allowed “indoor
movie theaters” to host “the lesser of 50% of the listed
fire code capacity or fifty persons” (§ 20). ER 646. But
that’s 50 persons “per screen.” Id. at 552 (emphasis
added). So a cinema with 18 screens can host 900
people while a church may only host up to 50, even if
it has worship spaces and meeting rooms divided into
18 separate spaces, just like the cinema. That is
because “the entrance and egress of congregants for
different services [may] not result in a gathering
greater than fifty persons.” App.59a (§ 11(3)).

12
The Governor’s Directive 033, replacing Directive
021, allowed churches to host more worshippers but
still subject to a hard cap. At the same time, it
expanded the list of better-treated comparators to
include museums, art galleries, zoos, aquariums, and
convention centers. App.99a–101a (§ 13).
The directives’ real-life operation shows that
Nevada allows still more large, close, and prolonged
secular assemblies with no numerical limits. When
hundreds of protesters gathered in throngs in late
May 2020, see App.58a (§ 10), Governor Sisolak
tweeted his support, telling the protestors, “We
respect and defend your right to protest . . . .” ER 256.
The next day, he retweeted a protest video [ER 254]
that far exceeded his 50-person limit on gatherings:

13
And not only did the Governor tweet his support,
he later personally participated in an unlawful
protest and praised the gathering, saying, “‘I think
these are peaceful folks who are just speaking their
mind . . . . It’s encouraging to see the young generation
participating so I’m thrilled to come and say hi to
them.’”1
The Attorney General tweeted his support for the
protests, too. Id. at 161–62, 164. Yet when a reporter
asked about state officials’ treatment of mass protests
as compared to church services, the Attorney General
responded that places of worship face punishment
because “there was an advertisement that people are
actually going to violate the governor’s orders” and
“You can’t spit . . . in the face of law and expect law
not to respond.”2 Such pronouncements did not stop
the Governor from ignoring his own directive and
participating in a mass protest—which was also
presumably advertised ahead of time, given the
Governor’s
and
law
enforcement
officials’
appearances. Penrose, supra p. 13, n.1.

1

Kelsey Penrose, Gov. Sisolak makes appearance at Black Lives
Matter Protest in Carson City, CarsonNOW.org (June 19, 2020),
https://bit.ly/2VKTS2p.
2 Colton Lochhead, Sisolak, elected Nevada officials discuss
systemic racism, reform, Las Vegas Review-Journal (June 5,
2020), https://bit.ly/31JhKHr; Jackie Valley & Riley Snyder,
Sisolak, elected officials pledge to address systemic racism and
society’s ‘double standard’ toward black protestors, The Nev.
Indep. (June 5, 2020), https://bit.ly/2Z6bBU5.

14
State officials approached Nevada’s primary
election the same way. Hundreds of people standing
in close proximity for hours waiting to vote at a few
in-person sites made national headlines:

ER 68–72. Officials did nothing to limit groupings of
voters to 50 people, enforce social-distancing rules, or
aim to apply the Governor’s directive to polling places,
although these gatherings were state-run. Id. at 74–
79. Had the polling places instead been houses of
worship, the people standing in long lines would have
risked criminal and civil penalties. App.82a–83a
(§ 39).
C. Proceedings
Once the Governor issued Directive 021, Calvary
Chapel amended its complaint and alleged violations
of the First Amendment’s Free Exercise, Free Speech,

15
and Free Assembly Clauses.3 ER 662–81. The church
requested declaratory and injunctive relief, id. at 679,
and it filed an emergency motion for a temporary
restraining order or preliminary injunction, ECF 9,
19. The district court denied the motion, ER 1–10.
And although the court addressed the church’s freeexercise claim, id. at 3–9, its order was silent about
Calvary Chapel’s speech and assembly claims.
The district court admitted that “a large number
of people may remain in close proximity for an
extended period of time” at both casinos and places of
worship. ER 6. Yet the court disregarded them as
comparable based on regulatory distinctions, such as
state oversight of casinos’ “financial” and “internal
operations,” ibid., that do not affect—let alone
increase—public health and safety. Despite the
Governor applying “more lenient restrictions” to other
“secular activities comparable to in-person church
services,” the district court held Directive 021 neutral
and generally applicable. Id. at 7. It did so because
the Governor imposed “more stringent restrictions”
on a few types of secular assemblies, like concerts,
sporting events, and musical performances. Ibid.; see
App.60a (§ 22). Because Calvary Chapel could not
show that the Governor’s directive only “specifically
target[s] places of worship” for adverse treatment, the
district court identified no free-exercise violation.
ER 7.

3

The original complaint challenged Directive 018, which limited
gatherings in houses of worship to 10 people while allowing
restaurants, for example, to reopen at 50% capacity. ER 748
(§ 17).

16
As to Directive 021’s real operation, the district
court said that mass protests are unlike religious
services. Equally applying the directive to mass
protests, the court said, “could result in greater harm
than that sought to be avoided by the Directive.”
ER 8. The court required “more evidence” that
Nevada was not imposing effective restrictions on
“crowded casinos.” Id. at 9. And the court denied the
church’s motion for leave to file a post-argument brief
addressing the recent election. ECF 41; ER 10.
The church filed an emergency motion for an
injunction pending appeal with the district court,
which the court denied. ECF 55. A two-judge Ninth
Circuit panel likewise denied Calvary Chapel’s
injunction-pending-appeal request in a brief order.
CA9 ECF 20.
Calvary Chapel filed an application in this Court
on July 8, 2020, seeking an injunction pending appeal.
The Court denied that application on July 24, 2020.
Four Justices penned three dissents, explaining that
on the merits, Calvary Chapel demonstrated that
Governor Sisolak’s actions violated the First Amendment, and the question was not a close one. Calvary
Chapel, 140 S. Ct. at 2603, 2604 (Alito, J., joined by
Thomas, J., and Kavanaugh, J., dissenting) (“[T]his
Court’s willingness to allow such discrimination is
disappointing. We have a duty to defend the
Constitution, and even a public health emergency
does not absolve us of that responsibility.”); id. at
2609 (Gorsuch, J., dissenting) (“This is a simple
case.”); id. at 2609, 2615 (Kavanaugh, J., dissenting)
(“Nevada is discriminating against religion.”).

17
Back in the Ninth Circuit, the Governor moved to
dismiss the appeal as moot based on his newly issued
Directive 033, which increased the house-of-worship
occupancy cap to 250. But the new directive adds
museums, art galleries, zoos, aquariums, and other
secular organizations to the list of venues that can
hold assemblies at 50% fire-code capacity with no
hard cap, and it allows convention centers (previously
closed) to host four times as many attendees—up to
1,000—as churches. App.99a–101a (§§ 13, 15).
The Ninth Circuit denied the Governor’s motion,
holding that “‘voluntary cessation of a challenged
practice does not deprive a federal court of its power
to determine the legality of the practice’ if the
challenged practice is ‘reasonably . . . expected to
recur,’ as here” App.47a (quoting Friends of the Earth,
Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S.
167, 189 (2000)). What’s more, the Ninth Circuit
concluded, this is a case “capable of repetition, yet
evading review.” App.47a–48a (quoting Kingdomware
Techs., Inc. v. United States, 136 S. Ct. 1969, 1976
(2016)). Accordingly, the appeal continues, and oral
argument is scheduled for December 8, 2020.

18
REASONS FOR GRANTING THE WRIT
Four Justices have already concluded that
Governor Sisolak’s Directive 021 unconstitutionally
discriminated against churches and worshippers. It is
not clear whether additional Justices’ votes were
motivated by the merits or the high standard for an
appellate injunction. What is clear is that government
officials continue to invite lower courts to interpret
this Court’s denial of Calvary Chapel’s application for
an appellate injunction as a signal that they, too,
should allow government officials to treat churches
unequally. Given the straightforward nature of the
constitutional violations, the severity of the injury to
religious worship, the widespread nature of the
problem, and the duration of COVID-19, only this
Court can intervene and restore churches’ First
Amendment rights.
I.

The district court’s ruling is manifestly
wrong.
A. The district court’s ruling is in direct
conflict with multiple facets of this
Court’s Free Exercise jurisprudence.

Because Directive 021 “directly prohibit[ed]”
Calvary Chapel’s desired “religious activity,” it
strongly implicates the Free Exercise Clause. Trinity
Lutheran Church of Columbia, Inc. v. Comer, 137 S.
Ct. 2012, 2022 (2017) (quotation omitted). Religious
discrimination is “odious to our Constitution.” Id. at
2025. And the Free Exercise guarantees religious
believers—at a bare minimum—“[ ]equal treatment.”
Lukumi, 508 U.S. at 542.

19
To determine whether a law treats religious
believers and their practices equally, this Court
directs courts to “survey meticulously” the law’s text
and “real operation.” Lukumi, 508 U.S. at 531, 534–
35. A law that is not both neutral and generally
applicable faces strict scrutiny. Id. at 531.
A law is not neutral if it treats the same conduct
as lawful when undertaken for secular reasons but
unlawful when undertaken for religious reasons,
singles out religious conduct for adverse treatment, or
“visits gratuitous restrictions on religious conduct.”
Id. at 533–35, 538 (cleaned up). A law fails the general
applicability requirement if it does not “prohibit
nonreligious conduct that endangers [the state’s]
interests in a similar or greater degree than” the
prohibited religious conduct. Id. at 543. Or as thenJudge Alito explained, a law is not generally
applicable “if it burdens a category of religiously
motivated conduct but exempts or does not reach a
substantial category of conduct that is not religiously
motivated and that undermines the purposes of the
law to at least the same degree as the covered conduct
that is religiously motivated.” Blackhawk v. Pennsylvania, 381 F.3d 202, 209 (3d Cir. 2004) (Alito, J.).
South Bay upheld these principles. The Chief
Justice and dissenting Justices simply disagreed
about whether California’s unfavorable treatment of
places of worship depended on their religious status
or the nature of their gatherings. Some Justices
viewed secular assemblies at supermarkets, factories,
and offices as comparable to religious gatherings at
churches. S. Bay, 140 S. Ct. at 1615 (Kavanaugh, J.,
dissenting from denial of application for injunctive
relief). The Chief Justice did not.

20
In the Chief Justice’s view, these particular
commercial gatherings were different in kind because
“people neither congregate in large groups nor remain
in close proximity for extended periods.” Id. at 1613
(Roberts, C.J., concurring). But the exact opposite is
true here. A meticulous survey, see Lukumi, 508 U.S.
at 534, isn’t even necessary to see that Directive 021
treats comparable secular assemblies more leniently.
Governor Sisolak’s directive facially treated
better than religious services at least seven categories
of secular assemblies “where large groups of people
gather in close proximity for extended periods of
time,” S. Bay, 140 S. Ct. at 1613 (Roberts, C.J.,
concurring), not to mention the effective exemptions
state officials carved out for mass protests and polling
locations. And Directive 033 doubles down and adds
several more. In short, no real argument exists that
the Governor’s restrictions on public gatherings are
“neutral and of general applicability,” Lukumi, 508
U.S. at 531, which means the directive must undergo
“strict scrutiny,” id. at 546. For brevity’s sake,
Calvary Chapel offers just six examples here.
Casinos
Governor’s Sisolak’s directive allowed Nevada’s
casinos to reopen on June 4, 2020. App.80a–81a
(§ 35). Thousands of people swarmed around gaming
tables and slot machines for long periods at 50%
capacity. ER 83, 100, 166–70. But that’s not all.
Casinos also reopened their (1) live circus acts, ER
89–90; (2) indoor amusement parks, including Circus
Circus’s five-acre Adventuredome, id. 92–98; and
(3) live dinner shows at 50% capacity, id. 85–87.
Directive 021 allowed this daily mix of shared
handles, cards, tokens, tables, servers, drinks,

21
restrooms, and seats by hundreds to thousands in
casinos at 50% capacity, while barring more than 50
people to sit—masked and socially distanced—in
places of worship once or twice a week.
The disparity is stark. When casinos opened their
doors on June 4, they began serving thousands of
patrons spending multiple hours gambling. In
contrast, Directive 021 barred the church from
opening its doors for a 45-minute, Sunday service to
about 90 worshippers—Nevadans who live and work
in or near the rural community of Dayton. Id. at 653,
659.
The Governor has a legitimate interest in
“allow[ing] [Nevada’s] person-based tourism economy
to recover and succeed again.” ECF 29 at 7 (state
defendants’ response to motion for preliminary
injunction).4 But that interest is not weightier than
Calvary Chapel’s First Amendment right to free
exercise. By excepting casinos from a 50-person cap
on gatherings, the directive “exempts . . . a
substantial category” of secular conduct “that
undermines the purposes of the [directive] to at least
the same degree as the covered conduct that is
religiously motivated.” Blackhawk, 381 F.3d at 209
(Alito, J.).

4

Calvary Chapel uses the page numbers at the bottom of ECF
29 for pinpoint citations to that filing.

22
Restaurants and Bars
Lower courts broadly agree that gatherings at
restaurants are comparable to religious gatherings.5
For nearly six months the Governor has allowed
Nevada’s restaurants to operate at 50% seating
capacity. App.69a–70a (§ 25); ER 748 (§ 17). While
tables must be six-feet apart, members of different
households may sit side-by-side or directly across
from each other. Servers deliver food and drinks, mop
up, and collect dishes. Diners share appetizers, pass
and eat food, and talk freely across the table without
masks.6
The risk of COVID-19 transmission is much
greater at restaurants than at Calvary Chapel’s
worship gatherings, which are socially-distanced,
eliminate coffee and snacks, and exclude passing

5

E.g., Soos v. Cuomo, ___ F. Supp. 3d ____, 2020 WL 3488742,
at *11 (N.D.N.Y. June 26, 2020), appeal pending, Nos. 20-2414,
20-2418 (2d Cir.); Antietam Battlefield KOA v. Hogan, No. 1:20cv-01130, 2020 WL 2556496, at *9 (D. Md. May 20, 2020), appeal
pending, No. 20-1579 (4th Cir.); Calvary Chapel of Bangor v.
Mills, 459 F. Supp. 3d 273, 286 (D. Me. 2020), injunction pending
appeal denied, No. 20-1507, 2020 WL 3067488 (1st Cir. June 2,
2020); Cross Culture Christian Ctr. v. Newsom, No. 2:20-cv00832, 2020 WL 2121111, at *6 (E.D. Cal. May 5, 2020).
6 The Governor’s face-covering directive allows people to remove
face masks “while . . . eating or drinking.” Directive 024 (§ 7(6)),
CA9 ECF 23, Ex. 1. This summer, the Governor announced new
restrictions for restaurants that remains in effect: six people to
a table, max. Directive 027 (§ 5), CA9 ECF 23, Ex. 3; Directive
033 (§ 12), App.97a–99a. But restaurants’ ability to host secular
gatherings at 50% of seating capacity statewide remains
unchanged. Directive 033 (§ 12), App.97a–99a.

23
objects from person-to-person.7 ER 659–60, 669–70;
see also id. at 108 (¶ 40) (expert declaration) (the
church’s “precautionary measures” mean it “likely
presents a lower risk of SARS-coV-2 transmission
than individuals face in other allowed activities”). Yet
while the Governor allows indoor restaurants to
operate at 50% seating capacity, he restricted the
church’s gatherings to 50 people total—including
clergy, staff, sound and video technicians, and others
who serve and participate in worship.
For months, Governor Sisolak has allowed most
bars to operate at 50% capacity too, App.69a–71a
(§§ 25, 26), even though it takes little imagination to
envision how reduced inhibitions could lead to
decreased social-distancing and loud voices. Health
experts agree that the risks of contracting COVID-19
while drinking in bars is severe.8 Although the
Governor’s Mitigation Task Force has the power to
close bars in counties that have elevated virus
metrics, the Governor’s directives still allow
restaurants and casinos in those counties to continue
serving alcohol to groups seated at restaurant and
casino tables.9 And, of course, the Governor’s edicts
7

Calvary Chapel’s services only rarely involve Communion. And
even when they do, the church uses prepackaged elements. ER
660, 670.
8

Carla K. Johnson, Closing bars to stop coronavirus spread is
backed
by
science,
AP
News
(July
2,
2020),
https://bit.ly/2W3qswn.

9

Directive 027 (§§ 5, 6), CA9 ECF 23, Ex. 3; Directive 030 (§ 11),
CA9 ECF 44, Ex. 15; Directive 033 (§ 6), App.88a; see also
Nevada Health Response, COVD-19 Mitigation & Management
Task Force adjusts criteria used to monitor elevated risk of
transmission of COVID-19 in Nevada counties (Oct. 8, 2020),

24
still allows mass gatherings at 50% capacity at all
casinos regardless of county metrics, including the
Carson Plains Casino in Dayton Valley—about a fourmile drive from Calvary Chapel on U.S. Route 50.10
Amusement and Theme Parks
Indoor and outdoor amusement or theme parks in
Nevada have now been open at 50% capacity with
social distancing for more than five months. App.65a
(§ 21). Social distancing is easier to maintain in
Calvary Chapel’s sanctuary using prearranged
seating than in long, fluctuating theme-park lines.
And only a few people will sit in the same chair on a
Sunday morning, while hundreds of people daily cycle
through often partially-enclosed, theme-park rides.
But the Governor sanctioned boisterous crowds
waiting for long periods to board popular theme-park
attractions, while talking loudly, at the same time he
prohibited more than 50 people from (mainly) sitting
quietly and socially-distanced at church.
Gyms and Fitness Facilities
Under Directive 021, gyms and fitness facilities
could open—and hold large “[g]roup fitness classes”—
at 50% capacity if there is at least six feet between
equipment or people and various regulations (like
sanitation protocols) are met. App.71a–73a (§ 28). The
Governor admitted that gyms are precisely the sort of
places “that promote extended periods of public
https://bit.ly/3jPaKy7; Shannon Miller, Nevada COVID-19 Task
Force says Clark County bars must remain closed, Fox 5 News
(Aug. 20, 2020), https://bit.ly/3eqJDs7.
10

Carson Plains Casino, https://carsonplainscasino.net;
MapQuest, http://mapq.st/3iXbkuo.

25
interaction where the risk of transmission is high.”
ER 705 (§ 2). Yet he treated assemblies of people
exercising (which increases both breathing and
sweating) and actively sharing machines, weights,
and mats better than groups of people that share only
their faith and wish (predominantly) to sit still and
listen to clergy speak.
Any chance of transmission at worship services is
lower, especially those with the wide-ranging
precautions Calvary Chapel voluntarily agreed to
undertake. ER 659–60, 669–70. Even so, the
Governor sanctioned fitness facilities welcoming
crowds at 50%-capacity, while limiting all places of
worship—no matter
their
size,
locale,
or
precautions—to 50 people max.
Movie Theaters
Gatherings at “movie showings” and places of
worship are comparable, S. Bay, 140 S. Ct. at 1613
(Roberts, C.J., concurring), yet the Governor treated
them unequally. What Directive 021 meant by
limiting an “indoor movie theater[ ]” to “the lesser of
50% of the listed fire code capacity or fifty persons,”
App.64 –65a (§ 20), is not the entire cinema, but “50
people . . . per screen,” as industry guidance makes
clear, ER 552.
So the Governor allowed multiplex cinemas to fill
with hundreds of people (excluding employees), while
restricting every place of worship in Nevada to no
more than 50 persons, including those needed to run
the service. This is so even if the church, like the
multiplex, has multiple separate spaces that could be
used simultaneously for worship without any contact
between worshippers in different spaces. In real

26
terms, the Governor limited Calvary Chapel to
roughly 35-40 worshippers at a time—no matter how
many meeting rooms it has—because the Governor’s
directive stipulated that “congregants for different
services [may] not result in a gathering greater than
fifty persons.” App.59a (§ 11(3)); ER 658. It is not
equal to allow cinemas 50 paying customers per screen
but cap places of worship at 50 people per complex.
Mass Protests
This summer, hundreds of people in Nevada stood
shoulder-to-shoulder for long periods shouting or
chanting slogans and holding signs.11 ER 254–56.
This violated the Governor’s general directive that no
more than 50 people congregate in or out of doors.
App.58a (§ 10). Yet rather than discourage mass
protests or threaten to disperse them, the Governor
and Attorney General encouraged the gatherings. ER
161–64, 254–56. “[T]he effect of the [directive] in its
real operation is strong evidence of its object.”
Lukumi, 508 U.S. at 535. More than 50 people could
gather to lift their voices and plea for justice—but
only if their prayers and petitions were directed
toward their government, not God. This “unequal
treatment” violates the Free Exercise Clause.
Espinoza, 140 S. Ct. at 2254. The state’s value
judgment in effectively exempting secular protests
from the 50-person cap while not exempting Calvary
Chapel’s religious activities reveals that Nevada’s
actions are neither religion-neutral nor generally
applicable.
11

Sabrina Schnur, Juneteenth rally, march on Las Vegas Strip
draw scores of protestors, Las Vegas Review-Journal (June 19,
2020), https://bit.ly/2NZ9Mlm.

27
And if Nevada’s unequal treatment of places of
worship needed an exclamation mark, the Governor
provided it by personally participating in a protest
that violated his own directive. Penrose supra p. 13
n.1. As this Court held in Lukumi, a “prohibition that
society is prepared to impose upon [religious
worshippers] but not upon itself” is not generally
applicable. Lukumi, 508 U.S. at 545 (citation
omitted).
“In sum, the directive blatantly discriminates
against houses of worship and thus warrants strict
scrutiny under the Free Exercise Clause.” Calvary
Chapel, 140 S. Ct. at 2607 (Alito, J., dissenting).
B. The district court’s ruling conflicts with
this Court’s free-speech and freeassembly
precedents,
which
bar
favoring secular views and gatherings
over religious ones.
Directive 021 “fares no better” under this Court’s
precedents interpreting the Free Speech Clause.
Calvary Chapel, 140 S. Ct. at 2607 (Alito, J.,
dissenting). The district court’s denial of Calvary
Chapel’s request for injunction allows Nevada to
privilege commercial over non-commercial, religious
speech and to favor the communication of secular
perspectives over religious views. Yet commercial
speech occupies a “subordinate position in the scale of
First Amendment values.” Ohralik v. Ohio State Bar
Ass’n, 436 U.S. 447, 456 (1978).
Directive 021 turned the First Amendment on its
head by empowering businesses like casinos, movie
theaters, live dinner shows and circus acts, fitness
classes, certain bars, theme parks, and bowling alleys

28
to express commercial messages to larger in-person
audiences than places of worship communicating
their religious messages.
“[A] free-speech clause without religion would be
Hamlet without the prince.” Capitol Square Review &
Advisory Bd. v. Pinette, 515 U.S. 753, 760 (1995)
(plurality opinion). The First Amendment emphatically protects Calvary Chapel’s noncommercial,
religious messages, while secular businesses’
commercial expression is “subject to greater
governmental regulation.” Sorrell v. IMS Health, Inc.,
564 U.S. 552, 579 (2011). Yet the Governor “invert[ed]
this judgment” by affording many secular businesses
“a greater degree of [freedom to express] commercial”
messages to live audiences than he afford[ed] places
of worship to convey religious speech. Metromedia,
Inc. v. City of San Diego, 453 U.S. 490, 513 (1981). In
so doing, the Governor “conclude[d] that the
communication of commercial information . . . is of
greater value than the communication of noncommercial messages,” a value judgment the Free Speech
Clause does not permit. Ibid. The Constitution forbids
the Governor from privileging commercial messages
about gambling, fitness, entertainment, and liquor
over Calvary Chapel’s fully-protected religious
speech.
Religion is also a protected “viewpoint,” Good
News Club v. Milford Cent. Sch., 533 U.S. 98, 112 n.4
(2001), which the Governor treated worse than
businesses’ commercial advertising and mass protesters’ non-commercial standpoints. When state
officials “favor[ ] some speakers over others [based on]
a content preference,” strict scrutiny applies. Reed v.
Town of Gilbert, 576 U.S. 155, 170 (2015). Nevada

29
officials have demonstrated a clear preference for
secular viewpoints here: they allow many businesses’
for-profit inducements to thrive and applaud,
encourage, and even participate in mass protests that
violate the Governor’s directive.
Under the Free Speech Clause, state officials may
not pick and choose which views are worth hearing in
person, nor may they “select the permissible [standpoints] for public” discussion or “control [individuals’]
search for . . . truth.” City of Ladue v. Gilleo, 512 U.S.
43, 51 (1994) (cleaned up). Governor Sisolak cannot
decide that proliferating commercial speech and
secular protests is worth the cost and then deem
communicating religious ideas less valuable or
worthwhile. His discrimination against Calvary
Chapel’s broadcast of religious views palpably
violates this Court’s precedent, Rosenberger v. Rector
& Visitors of Univ. of Va., 515 U.S. 819, 830–31
(1995), as “favoring one viewpoint over others is
anathema to the First Amendment.” Calvary Chapel,
140 S. Ct. at 2608 (Alito, J., dissenting).
The Governor has suggested that multiple small
services, along with streaming capabilities, are good
enough for churches. ECF 39 at 7. But this Court has
repeatedly recognized “the close nexus between the
freedoms of speech and assembly.” NAACP v. Ala. ex
rel. Patterson, 357 U.S. 449, 460 (1958) (citations
omitted). The restriction of one necessarily restricts
the other. Cf. Whitney v. California, 274 U.S. 357, 375
(1927) (Brandeis, J., concurring) (“without free speech
and assembly discussion would be futile”).
The Governor’s personal appearance at a protest
highlights how the free speech and assembly rights
work in tandem. Penrose, supra p. 13 n.1. He could

30
have depended on tweets (ER 254, 256) or press
conferences (supra p. 13 n.2) to greet and encourage
protesters. But that would not have been nearly as
meaningful to the protesters since “[e]ffective
advocacy of both public and private points of view,
particularly controversial ones, is undeniably
enhanced by group association,” Patterson, 357 U.S.
at 460—not to mention the presence of the state’s
chief executive.
It is no answer to tell Calvary Chapel that it “is
only limited on the size of any service, rather than the
number of services and [has] the ability to
communicate in multiple ways.” ECF 39 at 7. The
Governor does not advise casinos that selling virtual
vacations and gambling is good enough to entice
patrons to part with their money from afar, or
encourage protesters to hold multiple, small protests
to effect social change. The inequality is blatant.
“The gathering of a large number of people to
show support for a cause undeniably attracts public
attention and can be an extremely effective way of
promoting the group’s message.” S. Or. Barter Fair v.
Jackson Cnty., 372 F.3d 1128, 1136 (9th Cir. 2004). It
also has religious significance. ER 653–54. For those
reasons, Calvary Chapel sought to convey its message
to a larger group of worshippers because its message
stands on at least an equal constitutional rung as the
protesters’. And the church’s message stands on a
much higher one than the commercial speech of
casinos, theme parks, bowling alleys, and other
businesses.

31
C. The Governor’s justifications for his
discrimination do not withstand scrutiny. Some amplify the constitutional
violation.
1. Gaming licenses. The Governor attempted to
justify the disparate treatment by saying casinos are
“privileged licensees.” ECF 39 at 4–6. He reasoned
that because casinos are licensees subject to
regulatory oversight and enforcement, the state can
readily shut casinos down or otherwise discipline
them if they don’t comply. Ibid. The district court
agreed. ER 7. These greater restrictions, the court
noted, include “training of the employees, financial
operations and other internal operations of casinos.”
Id. at 6. But this holding turns First Amendment
jurisprudence on its head, elevating a state-granted
privilege over a fundamental right to excuse more
favorable treatment of casinos. And accepting it
would render it impossible to show that any business
is comparable to a place or worship, since nearly every
Nevada business—if not all of them—is a privileged
licensee and therefore subject to regulatory oversight.
Neither Lukumi nor the Chief Justice’s
concurrence in South Bay established such a rule. The
relevant question is whether the law fails to “prohibit
nonreligious conduct that endangers [the state’s]
interests in a similar or greater degree than” the
prohibited religious conduct. Lukumi, 508 U.S. at 543.
And the Governor’s failure to impose a 50-person cap
at comparable secular establishments shows that the
Governor treats secular assemblies “more leniently”
than churches.

32
Unable to deny that casinos involve large groups
gathered together in close proximity for extended
periods, the Governor cited regulating casinos as a
talisman intended to ward off any comparison to
churches. ECF 39 at 4–5. This token fails. The
Governor identified no health or safety regulations
that purport to make casinos safer than places of
worship, id., nor could he.
2. All mass gatherings treated “equally.” The
Governor said that Directive 021 treated all mass
gatherings equally and is therefore neutral and
generally applicable. ECF 29 at 5–6, 12–14, 16; ECF
39 at 3. That argument is no longer valid after
Directive 033 and is semantics in any event. What he
meant is that Directive 021 limits all public
gatherings to no more than 50 people if the type of
gathering is not specifically mentioned elsewhere.
App.58a (§ 10). Ignoring the directive’s abundant
exceptions for large, close, and prolonged secular
assemblies—not to mention officials’ effective
exemption of mass protests—is irrational.
So the Governor backpedaled, saying that he
treats some comparable secular assemblies the same
as religious gatherings, some worse. ECF 29 at 13–14;
ECF 39 at 3. By this logic, the Governor could shut
down every worship gathering in the state if he barred
live audiences at some disfavored secular assemblies,
say, theater performances and concerts. That is not
the law. The Free Exercise Clause, “bars even ‘subtle
departures from neutrality’ on matters of religion.”
Masterpiece Cakeshop, 138 S. Ct. at 1731 (quoting
Lukumi, 508 U.S. at 534); Calvary Chapel, 140 S. Ct.
at 2613 (Kavanaugh, J., dissenting) (“In seeking to
justify the differential treatment” in cases where a

33
religious organization is treated less favorably than
other entities, “it is not enough for the government to
point out that other secular organizations or
individuals are also treated unfavorably”).
3. Commerce is different. The Governor says that
commerce differs from worship. ECF 29 at 7, 10–12,
14–16. True. Unlike commercial gatherings, the
rights to religious exercise, speech, and assembly are
“enshrined explicitly in the Constitution.” Espinoza,
140 S. Ct. at 2267 (Thomas, J., concurring). The
Governor’s failure to treat places of worship at least
as well as casinos, restaurants, theme parks, and
pools “devalues religious reasons for [congregating]
by judging them to be of lesser import than
nonreligious reasons” in violation of the First
Amendment. Lukumi, 508 U.S. at 537.
4. “Risky” religious gatherings. The Governor
contended that religious gatherings are somehow
riskier than the secular assemblies that Directive 021
prefers. ECF 39 at 7–8. As support, he offered the bald
statement of Dr. Azzam, Nevada’s Chief Medical
Officer, that “[i]n-person worship services pose
specific risks for disease transmission.” Id. at 7
(quoting ER 770 (¶ 22)). But the doctor notably
refrained from claiming that those “specific risks” are
unique to in-person worship services. See generally
ER 766–70. Instead, he asserted that “[i]ndividuals
attending large gatherings, including but not limited
to the types of events where there have been prior
instances of COVID-19 spreading, would be at
increased risk of disease and could be expected to
increase the spread of COVID-19 in their
communities and any other communities they visit.”

34
Id. at 769–70 (¶ 19) (emphasis added). This, too,
highlights the Governor’s disfavoring of worship.
The record does not support this different
treatment. An expert in infectious diseases testified
on Calvary Chapel’s behalf that “[t]here is no
scientific or medical reason that a religious service
that follows the guidelines issued by the CDC would
pose a more significant risk of spreading SARS-CoV2 than gatherings or interactions at other
establishments or institutions.” ER 105 (¶ 27). He
also testified that the health precautions Calvary
Chapel adopted for its in-person services are “equal to
or more extensive than those recommend by the CDC”
and that “there is no scientific or medical reason to
limit or restrict [the church’]s religious activities but
not similarly limit other gatherings or activities.” Id.
at 107 (¶¶ 35, 36). And the Governor previously
admitted that secular places like “gyms” and “fitness
establishments”—which operate at 50% capacity
under his directive—are exactly the sort of facilities
that “promote extended periods of public interaction
where the risk of transmission is high.” ER 705 (§ 2).
5. Protests problem. The Governor says that
Calvary Chapel’s argument about mass protests is
based on state officials’ “inability to prevent
spontaneous protests or to force local law enforcement
to arrest all those who violated Directive 021.” ECF
39 at 6. Not so. The Governor and Attorney General
could have agreed with the protesters’ message while
discouraging their mass gatherings and non-socialdistanced behavior. Spell v. Edwards, 962 F.3d 175,
181–82 (5th Cir. 2020) (Ho, J., concurring) (explaining
the difference between tolerance and support); Soos v.
Cuomo, ___ F. Supp. 3d ____, 2020 WL 3488742, at

35
*12 (N.D.N.Y. June 26, 2020), appeal pending, Nos.
20-2414, 20-2418 (2d Cir.). But state officials did no
such thing. Instead, they encouraged mass protests
and participated in them. ER 161–64, 254–56;
Penrose supra p. 13 n.1.
Neither may state officials deem applying the
directive to mass protests “not worth it” based on a
comparative-harm analysis while applying the
directive in full force to places of worship. ER 8. “The
protections of the Free Exercise Clause do not depend
on a ‘judgment-by-judgment analysis’ regarding
whether discrimination against religious adherents
would somehow serve ill-defined interests.” Espinoza,
140 S. Ct. at 2260 (cleaned up).
6. Jacobson. The Governor asked the lower court
to overlook his First Amendment violations under
Jacobson v. Massachusetts, 197 U.S. 11 (1905). ECF
29 at 9–11, 17–18; ECF 39 at 8. Yet Jacobson does not
change the constitutional analysis. Spell, 962 F.3d at
181 (Ho, J., concurring); S. Bay United Pentecostal
Church v. Newsom, 959 F.3d 938, 942–43 (9th Cir.
2020) (Collins, J., dissenting).
In Jacobson, this Court affirmed a five-dollar
criminal fine imposed on a Cambridge, Massachusetts resident who refused to comply with the city’s
mandatory vaccination regime, enacted in response to
a smallpox outbreak and which applied to everyone
equally. 197 U.S. at 13, 39. The Court rejected
Jacobson’s claim that the Fourteenth Amendment’s
guarantee of “liberty” entitled him to an exemption
that the law gave to no one else. Id. at 38; see Cruzan
v. Dir., Mo. Dep’t of Health, 497 U.S. 261, 278 (1990)
(Jacobson “balanced an individual’s liberty interest in

36
declining an unwanted smallpox vaccine against the
State’s interest in preventing disease”).
But even under Jacboson’s test, Directive 021
“would likely fail” because of its discriminatory
treatment of religion. Calvary Chapel, 140 S. Ct. at
2608 (Alito, J., dissenting). And it’s not even clear
Jacobson would apply to the circumstances here.
“Jacobson primarily involved a substantive due
process challenge to a local ordinance requiring
residents to be vaccinated for small pox. It is a
considerable stretch to read the decision as
establishing the test to be applied when statewide
measures of indefinite duration are challenged under
the First Amendment or other provisions not at issue
in that case.” Ibid. Jacobson does not justify Nevada’s
disparate treatment of churches and people of faith.
D. Directive 021 does not satisfy this
Court’s requirements for strict scrutiny.
Strict scrutiny applies because Directive 021
discriminated against religious gatherings and
favored secular speech and viewpoints over religious
speech and viewpoints. But the state cannot “prove
that [its] restriction furthers a compelling interest
and is narrowly tailored to achieve that interest.”
Reed, 576 U.S. at 171 (cleaned up). In fact, “Nevada
does not even try to argue that the directive can
withstand strict scrutiny.” Calvary Chapel, 140 S. Ct.
at 2608 (Alito, J., dissenting).

37
E. Calvary Chapel satisfies the other
preliminary-injunction requirements.
Because the Governor forbade Calvary Chapel
from holding religious services “in a way that
comparable secular businesses and persons can
conduct their activities,” Directive 021 harmed the
church’s free-exercise, free-speech, and free-assembly
rights. S. Bay, 140 S. Ct. at 1615 (Kavanaugh, J.,
dissenting). And “[t]he loss of First Amendment
freedoms, for even minimal periods of time,
unquestionably constitutes irreparably injury.” Elrod
v. Burns, 427 U.S. 347, 373 (1976).
The balance of equities also weighs heavily in
Calvary Chapel’s favor. If it is worth allowing large
crowds to gather in close proximity for extended
periods to enjoy non-constitutionally-protected activities at secular establishments, it is worth allowing
people to gather at places of worship to engage in the
constitutionally-protected free exercise of religion.
Last, when it comes to public interest, “there is
the highest public interest in the due observance of all
the constitutional guarantees,” United States v.
Raines, 362 U.S. 17, 27 (1960), including the free
exercise of religion, which “the text of the First
Amendment itself . . . gives special solicitude,”
Hosanna-Tabor Evangelical Lutheran Church & Sch.
v. E.E.O.C., 565 U.S. 171, 189 (2012).

38
II.

This case is an ideal vehicle to solve the
nationwide problem of government discrimination against churches in ad hoc
COVID-19 orders.

Governor Sisolak’s discriminatory treatment of
churches is so stark that four Justices would have
granted Calvary Chapel an injunction pending
appeal. Yet five Justices’ denial of such an
injunction—presumably under the high standard of
review—has extended the incursion on Calvary
Chapel’s free exercise and speech rights and has
resulted in conflicting lower-court decisions, some
denying churches equal treatment, e.g., Elim
Romanian Pentecostal Church v. Pritzer, 962 F.3d 341
(7th Cir. 2020) (pending in this Court as Case No. 20569) (allowing only small gatherings in churches but
large gatherings in restaurants and warehouses);
Harvest Rock Church, Inc. v. Newsom, __ F.3d __,
2020 WL 5835219 (9th Cir. Oct. 1, 2020) (injunction
pending appeal) (limiting in-person worship services
but treating more leniently, for example, attending
college classes); id. at *5 (O’Scannlain, J., dissenting),
and others vindicating church equality, e.g., Roberts
v. Neace, 958 F.3d 409, 414 (6th Cir. 2020) (per
curiam) (striking down Kentucky executive order that
placed harsher restrictions on churches than law
firms, laundromats, liquor stores, gun shops, airlines,
mining operations, funeral homes, and landscaping
businesses). Many more cases remain pending.12 The
12

E.g., Calvary Chapel of Bangor v. Mills, 459 F. Supp. 3d 273
(D. Me. 2020), injunction pending appeal denied, No. 20-1507,
2020 WL 3067488 (1st Cir. June 2, 2020); Soos v. Cuomo, ___ F.
Supp. 3d ____, 2020 WL 3488742 (N.D.N.Y. June 26, 2020),
appeal pending, Nos. 20-2414 & 20-2418 (2d Cir.); Cassell v.
Snyders, 458 F. Supp. 3d 981 (N.D. Ill. 2020), appeal pending,

39
Court should use this opportunity to grant the
petition and clarify for all that the First Amendment
does not allow government officials to use COVID-19
as an excuse to treat churches and their worshippers
worse than secular establishments and their patrons.
As noted at the outset, time is of the essence. If
the Court does not grant the petition by its last
January conference, it is a practical impossibility that
oral argument will be heard and an opinion issued
before the end of the 2020 Term. Any delay will cause
historically severe damage to First Amendment
rights: “[p]reventing congregants from worshipping
will cause irreparable harm.” Calvary Chapel, 140 S.
Ct. at 2609 (Alito, J., dissenting); see also Food &
Drug Admin. v. Am. Coll. of Obstetricians &
Gynecologists, ___ S. Ct. ____, 2020 WL 5951467, at
*1 (Oct. 8, 2020) (Alito, J., dissenting from holding
injunction application in abeyance) (“The free
exercise of religion . . . has suffered previously
unimaginable restraints [under COVID-19 executive
orders].”).
Certiorari is warranted, whether now or after any
adverse Ninth Circuit issues ruling on the merits of
Calvary Chapel’s preliminary-injunction appeal.

No. 20-1757 (CA7): Legacy Church, Inc. v. Kunkel, ___ F. Supp.
3d ____, 2020 WL 3963764 (D.N.M. July 13, 2020), appeal
pending, No. 20-2117 (10th Cir.); High Plains Harvest Church v.
Polis, 2020 WL 4582720 (D. Colo. Aug. 10, 2020), appeal
pending, No. 20-1280 (10th Cir.).

40
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(202) 393-8690
kwaggoner@ADFlegal.org
jbursch@ADFlegal.org
RYAN J. TUCKER
JEREMIAH J. GALUS
GREGG WALTERS
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
rtucker@ADFlegal.org
jgalus@ADFlegal.org
gwalters@adflegal.org

NOVEMBER 2020

DAVID A. CORTMAN
Counsel of Record
RORY GRAY
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774
dcortman@ADFlegal.org
rgray@ADFlegal.org
JASON D. GUINASSO
500 Damonte Ranch Pkwy
Suite 980
Reno, NV 89521
(775) 853-8746
jguinasso@hutchlegal.com

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
United States District Court
for the District of Nevada
Order Denying Emergency Motions for a
Temporary Restraining Order and
Preliminary Injunction
Issued June 11, 2020................................................ 1a
United States District Court
for the District of Nevada
Order Denying Motion to Stay Pending
Appeal
Issued June 19, 2020.............................................. 13a
United States Supreme Court
Order Denying Application for Injunctive
Relief
Issued July 24, 2020 .............................................. 19a
United States Court of Appeals
for the Ninth Circuit
Order Denying Emergency Motion for
Injunctive Relief Pending Appeal
Issued July 2, 2020 ................................................ 46a
United States Court of Appeals
for the Ninth Circuit
Order Denying Motion to Dismiss Appeal
Issued October 26, 2020 ......................................... 47a
U.S. Constitutional Provisions .............................. 49a

iia
State of Nevada, Governor Sisolak
COVID-19 Declaration of Emergency
Directive 021
Issued May 28, 2020 .............................................. 50a
State of Nevada, Governor Sisolak
COVID-19 Declaration of Emergency
Directive 033
Issued September 30, 2020 .................................... 84a

1a
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
CALVARY CHAPEL DAYTON
VALLEY,
Plaintiff(s),

Case No. 3:20-cv00303-RFB-VCF
ORDER

v.
STEVE SISOLAK
AARON FORD
FRANK HUNEWILL
Defendant(s).

I.

INTRODUCTION

Before the Court are Plaintiff Calvary Chapel
Dayton Valley’s (“Calvary” or “Plaintiff”) Emergency
Motions for a Temporary Restraining Order and
Preliminary Injunction. ECF Nos. 9, 19. For the
following reasons, the Court denies both motions
without prejudice.
II.

PROCEDURAL BACKGROUND

Plaintiff brought its initial complaint on May 22,
2020 and filed the operative amended complaint on
May 28, 2020. ECF Nos. 1, 8. The complaint brought
facial and as-applied First and Fourteenth
Amendment challenges to Governor Sisolak’s
emergency directives in response to the COVID-19
pandemic. Id. Plaintiff filed a motion for a temporary

2a
restraining order and preliminary injunction on May
28 and May 29, 2020. ECF Nos. 9, 19. The Court
denied Plaintiff’s motion to consider the motions on
an expedited basis. ECF Nos. 16, 23. Defendant Steve
Sisolak responded to the motions on June 2, 2020.
ECF Nos. 9, 19. Defendant Frank Hunewill joined
Defendant Sisolak’s response on that same date. ECF
No. 32. Plaintiff filed a supplement to its motion on
June 4, 2020 and Defendant Sisolak responded on
June 7, 2020. ECF Nos. 38, 39. The Court held a
hearing on the motions on June 9, 2020. This written
order now follows.
III.

FACTUAL BACKGROUND

The Court makes the following findings of fact.
Calvary Chapel Dayton Valley is a Christian church
in Dayton, Nevada that has operated since February
5, 2006. Calvary believes that the Bible commands
Christians to gather together in person for corporate
prayer and worship. On March 16, 2020, in response
to the ongoing coronavirus pandemic, Calvary
suspended in-person worship services. However,
Calvary sincerely believes that online services and
drive-in services thwart the Bible’s requirement of inperson services for corporate worship, and some
church attendees do not have internet access and
therefore are not able to participate in online services.
Calvary therefore wishes to resume in-person
services.
On May 26, 2020, Defendant Governor Sisolak
announced that Nevada would enter “Phase Two” of
its reopening. To that end, he issued Emergency
Directive 021 on May 28, 2020 (hereinafter the
“Emergency
Directive”
or
“Directive”).
The

3a
Emergency Directive permits several categories of
business and social activity to resume, subject to
different restrictions. For example, Section 10 of the
directive prohibits gatherings in groups of more than
fifty people in any indoor or outdoor areas. Emergency
Directive 021, § 10. Communities of worship and
faith-based organizations are allowed to conduct inperson services so long as no more than fifty people
are gathered, while respecting social distancing
requirements. Id. at § 11. Section 20 similarly limits
movie theaters to a maximum of fifty people. Id. at
§20. Section 35 of the Emergency Directive allows
casinos to reopen at 50% their capacity and subject to
further regulations promulgated by the Nevada
Gaming Control Board. Id. at § 35.
IV.

LEGAL STANDARD

The analysis for a temporary restraining order is
“substantially identical” to that of a preliminary
injunction. Stuhlbarg Intern. Sales Co, Inc. v. John D.
Brush & Co., Inc., 240 F.3d 832, 839 n.7 (9th Cir.
2001). A preliminary injunction is “an extraordinary
remedy that may only be awarded upon a clear
showing that the plaintiff is entitled to such relief.”
Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7,
22 (2008). To obtain a preliminary injunction, a
plaintiff must establish four elements: “(1) a
likelihood of success on the merits, (2) that the
plaintiff will likely suffer irreparable harm in the
absence of preliminary relief, (3) that the balance of
equities tips in its favor, and (4) that the public
interest favors an injunction.” Wells Fargo & Co. v.
ABD Ins. & Fin. Servs., Inc., 758 F.3d 1069, 1071 (9th
Cir. 2014), as amended (Mar. 11, 2014) (citing Winter,
555 U.S. 7, 20 (2008)). A preliminary injunction may

4a
also issue under the “serious questions” test. Alliance
for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1134
(9th Cir. 2011) (affirming the continued viability of
this doctrine post-Winter). According to this test, a
plaintiff can obtain a preliminary injunction by
demonstrating “that serious questions going to the
merits were raised and the balance of hardships tips
sharply in the plaintiff’s favor,” in addition to the
other Winter elements. Id. at 1134-35 (citation
omitted).
V.

DISCUSSION

The Court denies the motions because it finds
that Plaintiff has not demonstrated a likelihood of
success on its First Amendment Free Exercise claim.
The Court examines both the facial and as-applied
challenges to the Emergency Directive. The Court
incorporates by reference its findings made on the
record, which shall be construed consistent with this
written ruling.
a. Facial Challenge
The Free Exercise Clause of the First Amendment
provides that “Congress shall make no law respecting
an establishment of religion or prohibiting the free
exercise thereof.” Am. Family Ass’n, Inc v. City & Cty.
of San Francisco, 277 F.3d 1114, 1123 (9th Cir. 2002)
(citing U.S. Const. amend. I). A regulation or law
violates the Free Exercise clause when it is neither
neutral nor generally applicable, substantially
burdens a religious practice, and is not justified by a
substantial state interest or narrowly tailored to
achieve that interest. Id. (citing Church of Lukumi
Babalu Aye, Inc. v. Hialeah, 508 U.S. 520, 531 – 32
(1993)).

5a
The Constitution principally entrusts “[t]he
safety and the health of the people” to the politically
accountable officials of the States “to guard and
protect.” Jacobson v. Massachusetts, 197 U. S. 11, 38
(1905). When state officials “undertake[ ] to act in
areas fraught with medical and scientific
uncertainties,” their latitude “must be especially
broad.” Marshall v. United States, 414 U. S. 417, 427
(1974).
The Supreme Court examined the relationship
between COVID-19 related executive orders and the
Free Exercise Clause in its recent order in South Bay
United Pentecostal Church v. Newsom, No. 19A1044,
2020 WL 2813056 (May 29, 2020). In South Bay, the
Supreme Court denied an application for injunctive
relief enjoining enforcement of a portion of the
California governor’s executive order to limit the
spread of COVID-19. Id. The order limited attendance
at places of worship to 25% of building capacity or a
maximum of 100 attendees. Id. at 1. The Supreme
Court found that the restrictions appeared consistent
with the Free Exercise Clause of the First
Amendment. Id. Chief Justice Roberts first noted that
“[s]imilar or more severe restrictions apply to
comparable secular gatherings, including lectures,
concerts, movie showings, spectator sports, and
theatrical performances, where large groups of people
gather in close proximity for extended periods of
time.” Id. Chief Justice Roberts then explained that
the “[o]rder exempts or treats more leniently only
dissimilar activities, such as operating grocery stores,
banks or laundromats, in which people neither
congregate in large groups nor remain in close
proximity for extended periods.” Id. Finally, Chief

6a
Justice Roberts concluded that, “[t]he precise
question of when restrictions on particular social
activities should be lifted during the pandemic is a
dynamic and fact-intensive matter subject to
reasonable disagreement,” and that when elected
officials “act in areas fraught with medical and
scientific uncertainties,” their latitude “must be
especially broad.” Id. (internal citations omitted).
“When those broad limits are not exceeded, they
should not be subject to second-guessing by an
unelected federal judiciary, which lacks the
background, competence and expertise to assess
public health and is not accountable to the people.” Id.
(internal citations omitted).
The Court finds the holding in South Bay
applicable to this case and holds that the Emergency
Directive is neutral and generally applicable and does
not burden Plaintiff’s First Amendment right to free
exercise. Consequently, the Court finds that Plaintiff
has not demonstrated a likelihood of success on the
merits of its claim.
Calvary argues that the Defendants in this case,
based upon the plain language of the Emergency
Directive, have violated the First Amendment by
‘exceeding the limits’ of their authority during a
public health crisis. Calvary bases its argument on
alleged differential treatment between itself and
other secular organizations/activities. Calvary points
to several secular businesses that it insists engage in
comparable activity in which people gather in large
groups and remain in close proximity for large periods
of time, including casinos, restaurants, nail salons,
massage centers, bars, gyms, bowling alleys and
arcades, all of which are allowed to operate at 50% of

7a
official fire code capacity. Calvary specifically focuses
on casinos and includes photos in its briefing of
crowded casino gaming centers, after the state
reopened them on June 4. Given that any social
behavior increases the risk of covid-19 transmission,
Calvary argues, there is no scientific or medical
reason to distinguish between places of worship and
other comparable activities.
The Court agrees that church services may in
some respects be similar to casinos, in that both are
indoor locations in which a large number of people
may remain in close proximity for an extended period
of time. The Court, however, disagrees that casinos
are actually treated more favorably than places of
worship. During this phased reopening of Nevada by
the Governor, casinos are subject to substantial
restrictions and limitations required by the Nevada
Gaming Control Board which exist in addition to and
in conjunction with the requirements and oversight
provided by the Emergency Directive. See Emergency
Directive, § 35; Addendum to April 21, 2020 Policy
Memorandum posted May 29, 2020; 2020-30 Updated
Health and Safety Policies for Reopening after
Temporary Closure posted May 27, 2020; Health and
Safety Policy for the Resumption of Gaming
Operations Nonrestricted Licensees posted May 27,
2020; Procedures for Reopening after Temporary
Closure Due to COVID-19 posted April 21, 2020,
Gaming Control Board. Such additional regulatory
policies set forth requirements related not only to the
social distancing and placement of table games or slot
machines in the casino, for example, but they also set
forth requirements regarding training of the
employees, financial operations and other internal

8a
operations of casinos. Id. These casinos are also
subject to regular and explicit inspection of all aspects
of the respective casino’s reopening plan. Id. Indeed,
gaming companies are one of the few categories of
organizations in which the directive specifically
discusses enforcement and punishment alternatives
for violating the directive and concomitant promulgated regulations. Emergency Directive, §35. Casinos
are therefore subject to heightened regulation and
scrutiny under these guidelines in comparison to
churches, regardless of the difference in occupancy
cap. The Court finds that while Calvary focuses on the
fifty-person cap, it fails to consider the totality of
restrictions placed upon casinos in their comparative
analysis. Thus, even if the Court were to accept
casinos as the nearest point of comparison for its
analysis of similar activities and their related
restrictions imposed by the Governor, the Court
would nonetheless find that casinos are subject to
much greater restrictions on their operations and
oversight of their entire operations than places of
worship.
The Court also finds that other secular entities
and activities similar in nature to church services
have been subject to similar or more restrictive
limitations on their operations. The Court notes that
church services consist of activities, such as sermons
and corporate worship, that are comparable in terms
of large numbers of people gathering for an extend
period of time to lectures, museums, movie theaters,
specified trade/technical schools, nightclubs and
concerts. All of these latter activities are also subject
to the fifty-person cap or remain banned altogether
under Emergency Directive. See Emergency

9a
Directive, §§ 20, 22, 27, 30, 32. Given that there are
some secular activities comparable to in-person
church services that are subject to more lenient
restrictions, and yet other activities arguably
comparable to in-person church services that are
subject to more stringent restrictions, the Court
cannot find that the Emergency Directive is an
implicit or explicit attempt to specifically target
places of worship. Lukumi, 508 U.S. at 534 (striking
down city council ordinance that specifically targeted
and forbid animal sacrifices made by a particular
religious group). Additionally, whether a church is
more like a casino or more like a concert or lecture
hall for purposes of assessing risk of COVID-19
transmission is precisely the sort of “dynamic and
fact-intensive”
decision-making
“subject
to
reasonable disagreement,” that the Court should
refrain from engaging in. South Bay, 2020 WL
2813056, at * 1. As the Court finds that the
Emergency Directive is neutral and generally
applicable, there is no facial Free Exercise challenge,
and Calvary has therefore not demonstrated a
likelihood of success on the merits of this claim.
b. As-Applied Free Exercise Challenge:
Selective Enforcement
In its briefing Calvary also brings an as-applied
challenge selective enforcement claim. Specifically,
Calvary points to statements made by the Governor
and the Attorney General regarding recent protests to
argue that the section of the Emergency Directive
banning more than fifty people from gathering,
whether inside or outside, is not being enforced
against secular activity. Calvary also includes
photographs from casinos which appear to indicate

10a
violations of the social distancing requirements of the
Directive and photos from Fremont Street in
downtown Las Vegas in which it appears that far
more than fifty people have gathered.
First, the Court is not persuaded that outdoor
protest activity is similar to places of worship in terms
of the nature of the activity and its ability to be
regulated. Outdoor protests involve dynamic large
interactions where state officials must also consider
the public safety implications of enforcement of social
distancing. That is to say that such enforcement could
result in greater harm than that sought to be avoided
by the Directive. The choice between which
regulations or laws shall be enforced in social settings
is a choice allocated generally to the executive, not the
judiciary, absent clear patterns of unconstitutional
selective enforcement.
Moreover, the Court finds that Calvary has not
provided a sufficient evidentiary basis for its asapplied challenge. For a selective enforcement claim,
it is not enough for Calvary to demonstrate that the
directive is intermittently not being enforced against
secular activities. Calvary must also demonstrate
that Defendants are only enforcing the directive
against places of worship. See Stormans, Inc v.
Wiseman, 794 F.3d 1064, 1083 (9th Cir. 2015) (finding
no evidence of selective enforcement against
religiously affiliated pharmacies in enforcement of
drug delivery rules). The Plaintiffs have not
presented evidence of such a pattern of selective
enforcement. While images of crowded casinos
attached to its submission may raise a potential
future issue of selective enforcement, the Court must

11a
have more evidence than this to find a likelihood of
success on the merits of a selective enforcement claim.
The Plaintiff’s selective enforcement claim is
premature. The story of the enforcement of these
directives has yet to be written. Indeed, the primary
official tasked with enforcing the Emergency
Directive in Lyon County is the Lyon County Sheriff.
Defendant Sheriff Frank Hunewill has indicated
through counsel that he has no intention of using
limited law enforcement resources to enforce the
directive against Calvary or other places of worship.
Calvary has presented no evidence indicating that it
has been subject to actual enforcement by the Sheriff
or any other law enforcement officer. Calvary
therefore has not demonstrated a likelihood of success
on the merits of its selective enforcement claim. If
Calvary does in fact have evidence of selective
enforcement against it, nothing in this order shall
prohibit it from returning to the Court with that
evidence and filing a new motion for a preliminary
injunction.
///

12a
VI.

CONCLUSION

IT IS THEREFORE ORDERED that Plaintiff’s
Emergency Motion for Temporary Restraining Order
and Emergency Motion for Preliminary Injunction
(ECF Nos. 9, 19) are DENIED.
IT IS FURTHER ORDERED that the Motion
for Leave (ECF No. 41) is DENIED without prejudice.
The Court does grant Plaintiff leave to file a new
subsequent motion for injunctive relief in which it
may provide more evidence for an as-applied
challenge to the Emergency Directive. The Court
finds that full briefing would be appropriate for
consideration of any additional evidence presented by
any party.
DATED June 11, 2020.

13a
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
CALVARY CHAPEL DAYTON
VALLEY,
Plaintiff(s),

Case No. 3:20-cv00303-RFB-VCF
ORDER

v.
STEVE SISOLAK, in his
official capacity as Governor of
Nevada; AARON FORD, in his
official capacity as Attorney
General of Nevada; and
FRANK HUNEWILL, in his
official capacity as Sheriff of
Lyon County,
Defendant(s).

Plaintiff Calvary Chapel Dayton Valley moves
this Court to stay the effect of its June 11, 2020 Order
denying Plaintiff’s Emergency Motions for a
Temporary Restraining Order and Preliminary
Injunction pursuant to Federal Rule of Appellate
Procedure 8(a)(1) and Federal Rule of Civil Procedure
62(d). Fed. R. App. P. 8(a)(1); Fed. R. Civ. P. 62(d).
Plaintiff has appealed the Court’s Order, but also
requests that the Court reconsider its prior denial of
the Motion and issue an injunction. Ordinarily,

14a
“[w]hen a notice of appeal is filed, jurisdiction over the
matters being appealed . . . transfers from the district
court to the appeals court.” Mayweathers v. Newland,
258 F.3d 930, 935 (9th Cir. 2001). Rule 62(d) however,
provides an exception that allows parties who wish to
stay or otherwise modify the effect of an injunction
that is being appealed to move the district court to
stay the effect of the judgment or order pending that
appeal. Fed. R. Civ. P. 62(d); Mayweathers, 258 F.3d
at 935.
The issuance of a stay is “an exercise of discretion”
and not a “matter of right.” Nken v. Holder, 556 U.S.
418, 433 – 34 (2009). “The party requesting the stay
bears the burden of showing that the circumstances
justify an exercise of that discretion.” Id. at 434. In
considering whether to grant a stay, the Court must
consider “(1) whether the stay applicant has made a
strong showing that he is likely to succeed on the
merits; (2) whether the applicant will be irreparably
injured absent a stay; (3) whether issuance of the stay
will substantially injure the other parties interested
in the proceeding; and (4) where the public interest
lies.” Id. The first two factors are the most critical. Id.
The Court first notes that Plaintiff’s motion
should actually be construed as a motion for
reconsideration. As the Court has not issued an
injunction or otherwise ordered any particular action
by any party, there is no conduct or action to be
‘stayed.’ And, as an appeal has been filed, it would not
be appropriate for the Court to reconsider its order
after the filing of the appeal, which divests this Court
of jurisdiction. See City of Los Angeles, Harbor Div. v.
Santa Monica Baykeeper, 254 F.3d 882, 885 (9th Cir.
2001) (“As long as a district court has jurisdiction over

15a
the case, then it possesses the inherent procedural
power to reconsider, rescind, or modify an
interlocutory order for cause seen by it to be
sufficient.”)(internal citations omitted).
However, even applying the stay analysis
standard, the Court nevertheless denies Plaintiff’s
motion because Plaintiff has not demonstrated a
strong showing of a likelihood of success on the merits
of its claims. As the Court determined in its June 11,
2020 Order, Plaintiff has failed to demonstrate that
the Emergency Directive with which it takes issue
violates Plaintiff’s First Amendment rights. Rather
than repeat in detail that reasoning here, the Court
simply incorporates by reference its June 11, 2020.
Order Dated June 11, 2020, ECF No. 43, 4 – 9.
Moreover, the Court takes judicial notice1 of
recent developments and makes additional findings
that further indicate that Plaintiff cannot demonstrate a strong showing of likelihood of success on the
merits. First, much of Plaintiff’s argument has
focused on Defendants’ treatment of casinos, which
Plaintiff argues are not subject to the fifty-person cap,
in an example of preferential treatment given to
secular spaces over religious ones. But, as the Court
stated in its prior Order, the regulatory regime to
which casinos are subject is much more intrusive and
expansive—and subject to sudden modification—than
the regulatory regime applied to places of worship. To
this point, just two days ago, on June 17, 2020, the
See Fed. R. Evid. 201(b); (d) (court may, at any stage of the
proceeding, judicially notice facts not subject to reasonable
dispute if those facts are not subject to reasonable dispute and
from sources whose accuracy cannot reasonably be questioned).
1

16a
Nevada Gaming Control Board issued Notice # 202043, which, among other changes, now requires all
patrons of casinos to wear face coverings at table and
card games if there is no barrier, partition, or shield
between the dealer and each player or other person
within six feet of the table. See Updated Health and
Safety Policies for Reopening After Temporary
Closure, Nevada Gaming Control Board, https://
gaming.nv.gov/modules/showdocument.aspx?docume
ntid=16837 (last accessed June 18, 2020). This
updated regulation will result in a substantial
number of patrons at gaming establishments having
to wear face coverings while in the common gaming
area of such establishments. The Governor did not
modify his prior Emergency Directive to require face
coverings for individuals who go to places of worship
and participate in religious services. Thus, the Court
finds that casinos are now subject to some more
severe restrictions on their activities than are places
of worship. Moreover, the Court reiterates the point
that the Court made in its prior Order—that “while
Calvary focuses on the fifty-person cap, it fails to
consider the totality of restrictions placed upon
casinos [and other entities] in [its] comparative
analysis.” Order Dated June 11, 2020, ECF No. 43, at
7. That the Nevada Gaming Control Board suddenly
changed its regulations is also another example of the
dynamic nature of public health regulations during
this time period and the need for the Court to exercise
restraint. The Court emphasizes that the Emergency
Directive must be considered in light of the various
measures it imposes and all the various social
activities that it covers.

17a
The Court also takes judicial notice of the fact
that Nevada just yesterday experienced a recordbreaking day of increased viral infections. See Mike
Brunker, Nevada Adds 410 New COVID-19 Cases,
Clark County More Than 300,( June 19, 2020, 8:22
AM)
https://www.reviewjournal.com/news/politicsand-government/clark-county/nevada-adds-410-newcovid-19-cases-clark-county-more-than-300-2056621/
(last accessed June 19, 2020). As the Court previously
found and continues to find, Plaintiff’s requested
relief would require the Court to engage in potentially
daily or weekly decisions about public health
measures that have traditionally been left to state
officials and state agencies with expertise in this area.
The Plaintiff asks to the Court to intercede as to one
measure, yet this one measure is part of a whole
scheme of regulations imposed and monitored by
state officials. The Court does not find a basis to do so
at this point. See generally, Armstrong v. Davis, 275
F.3d 849, 872 (9th Cir. 2001)(noting that courts
should be cautious about imposing injunctive relief
that requires the “continuous supervision” of state
officials) abrogated on other grounds by Johnson v.
California, 543 U.S. 499 (2005).
Additionally, the recent update in the regulations
regarding casinos also undercuts Plaintiff’s asapplied challenge. No similar additional regulations
have been placed on places of worship. It is difficult to
establish a pattern of selective enforcement directed
towards places of worship when new, more restrictive
measures have been imposed against secular
activities and no similar restrictions were imposed on
religious activities.

18a
The Court further does not find that Plaintiff has
established irreparable injury if the stay is not
granted. Although a constitutional violation is an
irreparable injury, Plaintiff has not demonstrated
that its constitutional rights have been violated.
Furthermore, as the Court already discussed in its
prior Order, Plaintiff has submitted no evidence of
enforcement of the ordinance against it with regard to
its as-applied challenge.
Finally, the Court finds that the public interest
and the harm to the opposing party weigh in favor of
allowing the Court’s order to proceed. There is a
strong public interest in Defendants enforcing their
regulations regarding the COVID-19 pandemic, and
absent a showing that doing so violates a person’s
rights, Defendants should be allowed to proceed
unimpeded.
For all of the reasons stated,
IT IS THEREFORE ORDERED that Plaintiff’s
Motion for An Injunction (ECF No. 47) is DENIED.
DATED: June 19, 2020.

19a
Cite as: 591 U. S. ____ (2020)
ALITO, J., dissenting
SUPREME COURT OF THE UNITED STATES
_________________
No. 19A1070
_________________
CALVARY CHAPEL DAYTON VALLEY v. STEVE
SISOLAK, GOVERNOR OF NEVADA, ET AL.
ON APPLICATION FOR INJUNCTIVE RELIEF
[July 24, 2020]
The application for injunctive relief presented to
JUSTICE KAGAN and by her referred to the Court is
denied.
JUSTICE ALITO, with whom JUSTICE THOMAS and
JUSTICE KAVANAUGH join, dissenting from denial of
application for injunctive relief.
The Constitution guarantees the free exercise of
religion. It says nothing about the freedom to play
craps or black-jack, to feed tokens into a slot machine,
or to engage in any other game of chance. But the
Governor of Nevada apparently has different
priorities. Claiming virtually un-bounded power to
restrict constitutional rights during the COVID–19
pandemic, he has issued a directive that severely
limits attendance at religious services. A church,
synagogue, or mosque, regardless of its size, may not
admit more than 50 persons, but casinos and certain
other favored facilities may admit 50% of their
maximum occupancy—and in the case of gigantic Las

20a
Vegas casinos, this means that thousands of patrons
are allowed.
That Nevada would discriminate in favor of the
powerful gaming industry and its employees may not
come as a surprise, but this Court’s willingness to
allow such discrimination is disappointing. We have
a duty to defend the Constitution, and even a public
health emergency does not absolve us of that
responsibility.
I
Calvary Chapel Dayton Valley is a church located
in rural Nevada. It wishes to host worship services for
about 90 congregants, a figure that amounts to 50%
of its fire-code capacity. In conducting these services,
Calvary Chapel plans to take many precautions that
go beyond anything that the State requires. In
addition to asking congregants to adhere to proper
social distancing protocols, it intends to cut the length
of services in half. It also plans to require six feet of
separation between families seated in the pews, to
prohibit items from being passed among the congregation, to guide congregants to designated doorways
along one-way paths, and to leave sufficient time
between services so that the church can be sanitized.
According to an infectious disease expert, these
measures are “equal to or more extensive than those
recommended by the CDC.” Electronic Court Filing in
No. 3:20–CV–00303, Doc. 38–31 (D Nev., June 4,
2020), p. 6 (ECF).
Yet hosting even this type of service would violate
Directive 21, Nevada Governor Steve Sisolak’s phasetwo reopening plan, which limits indoor worship
services to “no more than fifty persons.” ECF Doc. 38–

21a
2, §11. Meanwhile, the directive caps a variety of
secular gatherings at 50% of their operating capacity,
meaning that they are welcome to exceed, and in some
cases far exceed, the 50-person limit imposed on
places of worship.
Citing this disparate treatment, Calvary Chapel
brought suit in Federal District Court and sought an
injunction allowing it to conduct services, in
accordance with its plan, for up to 50% of maximum
occupancy. The District Court refused to grant relief,
the Ninth Circuit denied Calvary Chapel’s application
for an injunction pending appeal, and now this Court
likewise denies relief.
I would grant an injunction pending appeal.
Calvary Chapel is very likely to succeed on its claim
that the directive’s discriminatory treatment of
houses of worship violates the First Amendment. In
addition, unconstitutionally preventing attendance at
worship services inflicts irreparable harm on Calvary
Chapel and its congregants, and the State has made
no effort to show that conducting services in accordance with Calvary Chapel’s plan would pose any
greater risk to public health than many other
activities that the directive allows, such as going to
the gym. The State certainly has not shown that
church attendance under Calvary Chapel’s plan is
riskier than what goes on in casinos.
For months now, States and their subdivisions
have responded to the pandemic by imposing
unprecedented restrictions on personal liberty,
including the free exercise of religion. This initial
response was understandable. In times of crisis,
public officials must respond quickly and decisively to

22a
evolving and uncertain situations. At the dawn of an
emergency—and the opening days of the COVID–19
outbreak plainly qualify—public officials may not be
able to craft precisely tailored rules. Time,
information, and expertise may be in short supply,
and those responsible for enforcement may lack the
resources needed to administer rules that draw fine
distinctions. Thus, at the outset of an emergency, it
may be appropriate for courts to tolerate very blunt
rules. In general, that is what has happened thus far
during the COVID–19 pandemic.
But a public health emergency does not give
Governors and other public officials carte blanche to
disregard the Constitution for as long as the medical
problem persists. As more medical and scientific
evidence becomes available, and as States have time
to craft policies in light of that evidence, courts should
expect policies that more carefully account for
constitutional rights. Governor Sisolak issued the
directive in question on May 28, more than two
months after declaring a state of emergency on March
12. Now four months have passed since the original
declaration. The problem is no longer one of exigency,
but one of considered yet discriminatory treatment of
places of worship.
II
Calvary Chapel argues that the Governor’s
directive violates both the Free Exercise Clause and
the Free Speech Clause of the First Amendment, and
I agree that Calvary Chapel has a very high likelihood
of success on these claims.

23a
A
Under the Free Exercise Clause, restrictions on
religious exercise that are not “neutral and of general
applicability” must survive strict scrutiny. Church of
Lukumi Babalu Aye, Inc. v. Hialeah, 508 U. S. 520,
531 (1993). “[T]he minimum requirement of
neutrality is that a law not discriminate on its face,”
id., at 533, and “[t]he Free Exercise Clause bars even
‘subtle departures from neutrality’ on matters of
religion.” Masterpiece Cakeshop, Ltd. v. Colorado
Civil Rights Comm’n, 584 U. S. ___, ___ (2018) (slip
op., at 17) (quoting Church of Lukumi, 508 U. S., at
534). Here, the departure is hardly subtle. The
Governor’s directive specifically treats worship
services differently from other activities that involve
extended, indoor gatherings of large groups of people.
The face of the directive provides many examples.
While “houses of worship” may admit “no more than
fifty persons,” ECF Doc. 38–2, §11, many favored
facilities that host indoor activities may operate at
50% capacity. Privileged facilities include bowling
alleys, §20, breweries, §26, fitness facilities, §28, and
most notably, casinos, which have operated at 50%
capacity for over a month, §35; ECF Doc. 38–3, p. 5,
sometimes featuring not only gambling but live circus
acts and shows.
For Las Vegas casinos, 50% capacity often means
thousands of patrons, and the activities that occur in
casinos frequently involve far less physical distancing
and other safety measures than the worship services
that Calvary Chapel proposes to conduct. Patrons at
a craps or blackjack table do not customarily stay six
feet apart. Casinos are permitted to serve alcohol,

24a
which is well known to induce risk taking, and
drinking generally requires at least the temporary
removal of masks. Casinos attract patrons from all
over the country. In anticipation of reopening, one
casino owner gave away 2,000 one-way airline tickets
to Las Vegas. ECF Doc. 38–9, p. 4. And when the
Governor announced that casinos would be permitted
to reopen, he invited visitors to come to the State.1
The average visitor to Las Vegas visits more than six
different casinos, potentially gathering with far more
than 50 persons in each one. ECF Doc. 38–6, p. 44.
Visitors to Las Vegas who gamble do so for more than
two hours per day on average, id., at 43, and gamblers
in a casino often move from one spot to another, trying
their luck at different games or at least at different
slot machines.
Houses of worship can—and have—adopted rules
that provide far more protection. Family groups can
be given places in the pews that are more than six feet
away from others. Worshippers can be required to
wear masks throughout the service or for all but a
very brief time. Worshippers do not customarily
travel from distant spots to attend a particular
church; nor do they generally hop from church to
church to sample different services on any given
Sunday. Few worship services last two hours.
(Calvary Chapel now limits its services to 45
minutes.) And worshippers do not generally mill
around the church while a service is in progress.

See Jones, Nevada Governor Green-Lights June 4
Reopening of Casinos; Las Vegas Gets Ready, L. A. Times (May
26, 2020), www.latimes.com/travel/story/2020-05-26/nevadagovernor-oks-reopening-vegas-prepares.
1

25a
The idea that allowing Calvary Chapel to admit
90 worshippers presents a greater public health risk
than allowing casinos to operate at 50% capacity is
hard to swallow, and the State’s efforts to justify the
discrimination are feeble. It notes that patrons at
gaming tables are supposed to wear masks and that
the service of food at casinos is now limited, but
congregants in houses of worship are also required to
wear masks, and they do not consume meals during
services.
The State notes that facilities other than houses
of worship, such as museums, art galleries, zoos,
aquariums, trade schools, and technical schools, are
also treated less favorably than casinos, but obviously
that does not justify preferential treatment for
casinos.
Finally, the State argues that preferential
treatment for casinos is justified because the State is
in a better position to enforce compliance by casinos,
which are under close supervision by state officials
and subject to penalties if they violate state rules. By
contrast, the State notes, rules for houses of worship
must be enforced by local authorities.
This argument might make some sense if
enforcing the 50% capacity rule were materially
harder than enforcing a flat 50-person rule. But there
is no reason to think that is so, let alone that it would
be compelling enough to justify differential treatment
of religion. Local officials responsible for enforcing
maximum occupancy limits during normal times
presumably know or can easily ascertain the limit for
particular churches, and the State does not claim that
these officials have any trouble enforcing those limits.

26a
In many jurisdictions, buildings that host gatherings
are required to post their maximum occupancy figure
in a prominent location. Enforcing a 50% limit would
not require local officials to do anything more than
divide that figure in half, and there is no reason to
think that enforcing that limit would be any harder
than enforcing a 50-person maximum.
Moreover, even if the State’s special regulatory
power over casinos could justify different rules for
those facilities, the State would still have no
explanation why facilities like bowling alleys,
arcades, and fitness centers are also given the benefit
of the 50% rule. And while the State suggests that it
strictly enforces the rules applicable to casinos,
photos and videos taken in casinos after they were
allowed to reopen show widespread and blatant safety
violations. Patrons without masks are seen at close
quarters, and the State has not brought to our
attention any evidence that it has cracked down on
non-complying casinos. The sharp spike in COVID–19
cases since the casinos reopened belies the State’s
strict enforcement claims.
While the directive’s treatment of casinos stands
out, other facilities are also given more favorable
treatment than houses of worship. Take the example
of bowling alleys. Some Las Vegas bowling alleys
where tournaments are held can seat hundreds of
spectators, and under the directive, these facilities
may admit up to 50% of capacity. Not only that, the
State tolerates seating arrangements at these
facilities that pose far more danger than the plan
Calvary Chapel proposes. An official state guidance
document states that groups of up to 50 people may
sit together in the grandstands of a bowling alley

27a
provided that they maintain social distancing from
other groups. ECF Doc. 38–5, p. 9. Thus, while
Calvary Chapel cannot admit more than 50
congregants even if families sit six feet apart,
spectators at a bowling tournament can sit together in
groups of 50 provided that each group maintains
social distancing from other groups.
In sum, the directive blatantly discriminates
against houses of worship and thus warrants strict
scrutiny under the Free Exercise Clause.
B
The directive fares no better under the Free
Speech Clause. Laws that restrict speech based on the
viewpoint it expresses are presumptively unconstitutional, see, e.g., Iancu v. Brunetti, 588 U. S. ___, ___–
___ (2019) (slip op., at 4–5), and under our cases
religion counts as a viewpoint, Rosenberger v. Rector
and Visitors of Univ. of Va., 515 U. S. 819, 831 (1995).
Here, the Directive plainly discriminates on the basis
of viewpoint. Compare the directive’s treatment of
casino entertainment and church services. Both
involve expression, but the directive favors the
secular expression in casino shows over the religious
expression in houses of worship.
Calvary Chapel has also brought to our attention
evidence that the Governor has favored certain
speakers over others. When large numbers of
protesters openly violated provisions of the Directive,
such as the rule against groups of more than 50
people, the Governor not only declined to enforce the
directive but publicly supported and participated in a
protest. Cf. Masterpiece Cakeshop, 584 U. S., at ___–
___ (slip op., at 14–16). He even shared a video of

28a
protesters standing shoulder to shoulder. The State’s
response to news that churches might violate the
directive was quite different. The attorney general of
Nevada is reported to have said, “ ‘You can’t spit . . .
in the face of law and not expect law to respond.’ ”2
Public protests, of course, are themselves
protected by the First Amendment, and any efforts to
restrict them would be subject to judicial review. But
respecting some First Amendment rights is not a
shield for violating others. The State defends the
Governor on the ground that the protests expressed a
viewpoint on important issues, and that is
undoubtedly true, but favoring one viewpoint over
others is anathema to the First Amendment.
C
Once it is recognized that the directive’s
treatment of houses of worship must satisfy strict
scrutiny, it is apparent that this discriminatory
treatment cannot survive. Indeed, Nevada does not
even try to argue that the directive can withstand
strict scrutiny.
Having allowed thousands to gather in casinos,
the State cannot claim to have a compelling interest
in limiting religious gatherings to 50 people—
regardless of the size of the facility and the measures
adopted to prevent the spread of the virus. “[A] law
cannot be regarded as protecting an interest of the
highest order . . . when it leaves appreciable damage
Application 8, and n. 6 (quoting Lochhead, Sisolak, Elected
Nevada Officials Discuss Systemic Racism, Reform, Las Vegas
Review-Journal (June 5, 2020), www.reviewjournal.com/news/
politics-and-government/nevada/sisolak-elected-nevada-officials
-discuss-systemic-racism-reform-2045833/).
2

29a
to that supposedly vital interest unprohibited.”
Church of Lukumi, 508 U. S., at 547 (internal quotation marks omitted). And even if the 50-person limit
served a compelling interest, the State has not shown
that public safety could not be protected at least as
well by measures such as those Calvary Chapel
proposes to implement.
D
The State’s primary defense of the directive’s
treatment of houses of worship is based on two
decisions of this Court. Quoting certain language in
Jacobson v. Massachusetts, 197 U. S. 11 (1905),
Nevada argues that “when a state exercises emergency police powers to enact an emergency public
health measure, courts will uphold it unless (1) there
is no real or substantial relation to public health, or
(2) the measures are ‘beyond all question’ a ‘plain[,]
palpable [invasion] of rights secured by the
fundamental law.’ ” Response to Application 11
(quoting Jacobson, 197 U. S., at 31).
Even
under
this
test,
the
directive’s
discriminatory treatment would likely fail for the
reasons already explained. And in any event, it is a
mistake to take language in Jacobson as the last word
on what the Constitution allows public officials to do
during the COVID–19 pandemic. Language in
Jacobson must be read in context, and it is important
to keep in mind that Jacobson primarily involved a
substantive due process challenge to a local ordinance
requiring residents to be vaccinated for small pox.3 It
The Court brushed aside Jacobson’s claims that the
challenged law violated the Preamble and the spirit of the
Constitution. Jacobson, 197 U. S., at 22. His claim under the
3

30a
is a considerable stretch to read the decision as
establishing the test to be applied when statewide
measures of indefinite duration are challenged under
the First Amendment or other provisions not at issue
in that case.
The State also points to the Court’s recent refusal
to issue a temporary injunction against enforcement
of a California law that limited the number of persons
allowed to attend church services. See South Bay
United Pentecostal Church v. Newsom, 590 U. S. ___
(2020). I dissented from that decision, see ibid.; see
also id., at ___ (KAVANAUGH, J., dissenting), but even
if it is accepted, that case is different from the one now
before us. In South Bay, a church relied on the fact
that the California law treated churches less
favorably than certain other facilities, such as
factories, offices, supermarkets, restaurants, and
retail stores. But the law was defended on the ground
that in these facilities, unlike in houses of worship,
“people neither congregate in large groups nor remain
in close proximity for extended periods.” Id., at ___
(ROBERTS, C. J., concurring) (slip op., at 2). That
cannot be said about the facilities favored in Nevada.
In casinos and other facilities granted preferential
treatment under the directive, people congregate in

Privileges or Immunities Clause of the Fourteenth Amendment
was doomed by the Slaughter-House Cases, 16 Wall. 36, 76–80
(1873), and was not addressed by the Court. Finally, the Court
quickly rejected his equal protection claim, Jacobson, 197 U. S.,
at 30, which was based on the law’s exemption for children and
persons under guardianship, see Commonwealth v. Jacobson,
decided with Commonwealth v. Pear, 183 Mass. 242, 248, 66
N. E. 719, 722 (1903).

31a
large groups and remain in close proximity for
extended periods.
E
An injunction pending appeal is warranted in this
case. Calvary Chapel’s First Amendment claims are
very likely to succeed. Indeed, it can be said that its
“legal rights . . . are indisputably clear,” Turner
Broadcasting System, Inc. v. FCC, 507 U. S. 1301,
1303 (1993) (Rehnquist, C. J., in chambers) (internal
quotation marks omitted), and the equities also favor
Calvary Chapel. Preventing congregants from
worshipping will cause irreparable harm, and the
State has made no effort to show that Calvary
Chapel’s plans would create a serious public health
risk.
*

*

*

I would issue an injunction barring the State,
pending appeal, from interfering with worship
services conducted at Calvary Chapel in accordance
with its stated plan and the general facemask
requirement. I therefore respectfully dissent.
GORSUCH, J., dissenting
JUSTICE GORSUCH, dissenting from denial of
application for injunctive relief.
This is a simple case. Under the Governor’s edict,
a 10-screen “multiplex” may host 500 moviegoers at
any time. A casino, too, may cater to hundreds at once,
with perhaps six people huddled at each craps table
here and a similar number gathered around every
roulette wheel there. Large numbers and close
quarters are fine in such places. But churches,

32a
synagogues, and mosques are banned from admitting
more than 50 worshippers—no matter how large the
building, how distant the individuals, how many wear
face masks, no matter the precautions at all. In
Nevada, it seems, it is better to be in entertainment
than religion. Maybe that is nothing new. But the
First Amendment prohibits such obvious discrimination against the exercise of religion. The world we
inhabit today, with a pandemic upon us, poses
unusual challenges. But there is no world in which
the Constitution permits Nevada to favor Caesars
Palace over Calvary Chapel.
KAVANAUGH, J., dissenting
JUSTICE KAVANAUGH, dissenting from denial of
application for injunctive relief.
I join JUSTICE ALITO’s dissent in full and
respectfully add these further comments.
Under its current reopening plan, Nevada allows
restaurants, bars, casinos, and gyms to grant
entrance to up to 50% of their total occupancy limit—
no matter how many people that may be. For
example, a casino with a 500-person occupancy limit
may let in up to 250 people. By contrast, places of
worship may only take in a maximum of 50 people,
without exception, regardless of the occupancy cap. So
unlike a casino next door, a church with a 500-person
occupancy limit may let in only 50 people, not 250
people. Nevada has offered no persuasive justification
for that overt discrimination against places of
worship. The risk of COVID–19 transmission is at
least as high at restaurants, bars, casinos, and gyms
as it is at religious services. Indeed, people congrega-

33a
ting in restaurants, bars, casinos, and gyms often
linger at least as long as they do at religious services.
And given the safety measures that Calvary Chapel
and other places of worship are following—including
social distancing, mask wearing, and certain
additional voluntary measures—it is evident that
people interact with others at restaurants, bars,
casinos, and gyms at least as closely as they do at
religious services.
In my view, Nevada’s discrimination against
religious services violates the Constitution. To be
clear, a State’s closing or reopening plan may subject
religious organizations to the same limits as secular
organizations. And in light of the devastating
COVID–19 pandemic, those limits may be very strict.
But a State may not impose strict limits on places of
worship and looser limits on restaurants, bars,
casinos, and gyms, at least without sufficient
justification for the differential treatment of religion.
As I will explain, Nevada has thus far failed to provide
a sufficient justification, and its current reopening
plan therefore violates the First Amendment.
In Part I, I will explain how this case fits into the
Court’s broader religion jurisprudence. In Part II, I
will explain why Nevada’s treatment of religious
organizations is unconstitutional under the Court’s
precedents.
I
Religion cases are among the most sensitive and
challenging in American law. Difficulties can arise at
the outset because the litigants in religion cases often
disagree about how to characterize a law. They may
disagree about whether a law favors religion or

34a
discriminates against religion. They may disagree
about whether a law treats religion equally or treats
religion differently. They may disagree about what it
means for a law to be neutral toward religion.
The definitional battles over what constitutes
favoritism, discrimination, equality, or neutrality can
influence, if not decide, the outcomes of religion cases.
But the parties to religion cases and the judges
deciding those cases often do not share a common
vocabulary or common background principles. And
that disconnect can muddy the analysis, build
resentment, and lead to litigants and judges talking
past one another.
In my view, some of the confusion and
disagreement can be averted by first identifying and
distinguishing four categories of laws: (1) laws that
expressly discriminate against religious organizations; (2) laws that expressly favor religious
organizations; (3) laws that do not classify on the
basis of religion but apply to secular and religious
organizations alike; and (4) laws that expressly treat
religious organizations equally to some secular
organizations but better or worse than other secular
organizations. As I will explain, this case involving
Nevada’s reopening plan falls into the fourth
category.
First are laws that expressly discriminate against
religious organizations because of religion. The recent
Espinoza case fell into that category. Espinoza v.
Montana Dept. of Revenue, ante, p. ___. The State of
Montana provided tax credits to those who
contributed to private school scholarship organizations. But there was a significant catch: Families

35a
eligible for scholarship funds could use those funds
only at secular private schools, not religious private
schools. Cases like that are straightforward examples
of religious discrimination. And as a general rule,
laws that discriminate against religion are, in the
Court’s words, “odious to our Constitution.” Espinoza,
ante, at 22 (internal quotation marks omitted); see
Trinity Lutheran Church of Columbia, Inc. v. Comer,
582 U. S. ___ (2017); Good News Club v. Milford
Central School, 533 U. S. 98 (2001); Rosenberger v.
Rector and Visitors of Univ. of Va., 515 U. S. 819
(1995); Larson v. Valente, 456 U. S. 228 (1982);
McDaniel v. Paty, 435 U. S. 618, 629 (1978) (Brennan,
J., concurring in judgment); see also Murphy v.
Collier, 587 U. S. ___ (2019) (KAVANAUGH, J.,
concurring in grant of application for stay); cf. Church
of Lukumi Babalu Aye, Inc. v. Hialeah, 508 U. S. 520
(1993).
Second are laws that expressly favor religious
organizations over secular organizations. Examples
include cases where a legislature affords religious
organizations certain accommodations, exemptions,
or benefits that are not available to secular
organizations. The legislature might, for example,
grant religious organizations a property tax
exemption that is not available to secular
organizations. Cf. Walz v. Tax Comm’n of City of New
York, 397 U. S. 664 (1970). Or the legislature might
authorize accommodations for certain religious
individuals (but not secular individuals) that relieve
them from the burdens of otherwise-applicable laws,
such as the draft. See Gillette v. United States, 401 U.
S. 437 (1971). Those kinds of accommodations or
exemptions can sometimes trigger Establishment

36a
Clause challenges because of the apparent favoritism
of religion. See generally American Legion v.
American Humanist Assn., 588 U. S. ___, ___ (2019)
(KAVANAUGH, J., concurring); see also Cutter v.
Wilkinson, 544 U. S. 709 (2005); Board of Ed. of
Kiryas Joel Village School Dist. v. Grumet, 512 U. S.
687, 722 (1994) (Kennedy, J., concurring in
judgment); Corporation of Presiding Bishop of Church
of Jesus Christ of Latter-day Saints v. Amos, 483 U. S.
327 (1987).
Third are laws that apply to religious and secular
organizations alike without making any classification
on the basis of religion. For example, a city fire code
may require sprinklers in all buildings that can hold
more than 100 people. A law like that would cover
buildings owned by religious organizations and
buildings owned by secular organizations. Those
kinds of laws on their face present no impermissible
discrimination or favoritism.
To be sure, those kinds of laws, although not
differentiating between religious and secular
organizations, can still sometimes impose substantial
burdens on religious exercise. If so, a religious
organization may seek an exemption in court (if not
also in the legislature) to the extent available under
federal or state law and permissible under the
Establishment Clause. See, e.g., Our Lady of
Guadalupe School v. Morrissey-Berru, ante, p. ___;
Gonzales v. O Centro Espírita Beneficente União do
Vegetal, 546 U. S. 418 (2006). Or a religious organization may contend that the facially neutral law was
actually motivated by animus against religion and is
unconstitutional on that ground. See Lukumi, 508
U. S. 520.

37a
Fourth are laws—like Nevada’s in this case—that
supply no criteria for government benefits or action,
but rather divvy up organizations into a favored or
exempt category and a disfavored or non-exempt
category. Those laws provide benefits only to
organizations in the favored or exempt category and
not to organizations in the disfavored or non-exempt
category.
For example, consider a zoning law that places
some secular organizations (apartment buildings,
small retail businesses, restaurants, banks, etc.) in a
favored or exempt zoning category, and places some
secular organizations (office buildings, large retail
businesses, movie theaters, music venues, etc.) in a
disfavored or non-exempt zoning category. Suppose
that religious properties arguably could be considered
similar to some of the secular properties in both
categories. What, then, are the constitutional limits
and requirements with respect to how the legislature
may categorize religious organizations?
In those circumstances, the Court’s precedents
make clear that the legislature may place religious
organizations in the favored or exempt category
rather than in the disfavored or non-exempt category
without causing an Establishment Clause problem.
See, e.g., Walz, 397 U. S., at 696 (opinion of Harlan,
J.) (“[T]he critical question is whether the
circumference of legislation encircles a class so broad
that it can be fairly concluded that religious
institutions could be thought to fall within the natural
perimeter”); Texas Monthly, Inc. v. Bullock, 489 U. S.
1, 14 (1989) (plurality opinion) (expressing approval
of subsidies “conferred upon a wide array of
nonsectarian groups as well as religious organiza-

38a
tions in pursuit of some legitimate secular end”);
Concerned Citizens of Carderock v. Hubbard, 84 F.
Supp. 2d 668 (Md. 2000) (State may place religious
organizations in favored zoning category along with
some secular organizations).
The converse free-exercise or equal-treatment
question is whether the legislature is required to
place religious organizations in the favored or exempt
category rather than in the disfavored or non-exempt
category. The Court’s free-exercise and equaltreatment precedents also supply an answer to that
question: Unless the State provides a sufficient
justification otherwise, it must place religious
organizations in the favored or exempt category. See
Laycock, The Remnants of Free Exercise, 1990 S. Ct.
Rev. 1, 49–50 (explaining how this Court’s precedents
grant “something analogous to most-favored nation
status” to religious organizations).
In Employment Div., Dept. of Human Resources of
Ore. v. Smith, 494 U. S. 872 (1990), for example, the
Court explained that “where the State has in place a
system of individual exemptions, it may not refuse to
extend that system to cases of religious hardship
without compelling reason.” Id., at 884 (internal
quotation marks omitted; emphasis added); see also
Lukumi, 508 U. S., at 537–538. Likewise, then-Judge
Alito stated that the First Amendment required a
police department to exempt Sunni Muslims from its
no-beard policy because the police department made
“exemptions from its policy for secular reasons and
has not offered any substantial justification for
refusing to provide similar treatment for officers who
are required to wear beards for religious reasons.”
Fraternal Order of Police Newark Lodge No. 12 v.

39a
Newark, 170 F. 3d 359, 360 (CA3 1999) (emphasis
added).
Put simply, under the Court’s religion precedents,
when a law on its face favors or exempts some secular
organizations as opposed to religious organizations, a
court entertaining a constitutional challenge by the
religious organizations must determine whether the
State has sufficiently justified the basis for the
distinction.
To be clear, the Court’s precedents do not require
that religious organizations be treated more favorably
than all secular organizations. Rather, the First
Amendment requires that religious organizations be
treated equally to the favored or exempt secular
organizations, unless the State can sufficiently justify
the differentiation.
Stated otherwise, in these kinds of cases, the
Court’s religion precedents require a basic two-step
inquiry. First, does the law create a favored or exempt
class of organizations and, if so, do religious
organizations fall outside of that class? That
threshold question does not require judges to decide
whether a church is more akin to a factory or more
like a museum, for example. Rather, the only question
at the start is whether a given law on its face favors
certain organizations and, if so, whether religious
organizations are part of that favored group. If the
religious organizations are not, the second question is
whether the government has provided a sufficient
justification for the differential treatment and
disfavoring of religion. Cf. Smith, 494 U. S., at 884.
In seeking to justify the differential treatment in
those kinds of cases, it is not enough for the govern-

40a
ment to point out that other secular organizations or
individuals are also treated unfavorably. The point “is
not whether one or a few secular analogs are
regulated. The question is whether a single secular
analog is not regulated.” Laycock & Collis, Generally
Applicable Law and the Free Exercise of Religion, 95
Neb. L. Rev. 1, 22 (2016). To that end, the government
must articulate a sufficient justification for treating
some secular organizations or individuals more
favorably than religious organizations or individuals.
See Smith, 494 U. S., at 884. That point is subtle but
absolutely critical. And if that point is not fully
understood, then cases of this kind will be wrongly
decided.
II
I turn then to analyzing Nevada’s rules under the
Court’s precedents. As JUSTICE ALITO explains in his
dissent, Nevada has now had more than four months
to respond to the initial COVID–19 crisis and adjust
its line-drawing as circumstances change. Yet Nevada
is still discriminating against religion. Nevada
applies a strict 50-person attendance cap to religious
worship services, but applies a looser 50% occupancy
cap to secular organizations like restaurants, bars,
casinos, and gyms.
Nevada has gestured at two possible justifications
for that discrimination: public health and the
economy. But neither argument is persuasive on this
record.
First is the State’s public health rationale.
Nevada undoubtedly has a compelling interest in
combating the spread of COVID–19 and protecting
the health of its citizens. But it does not have a

41a
persuasive public health reason for treating churches
differently from restaurants, bars, casinos, and gyms.
Calvary Chapel is happy to abide by the same 50%
occupancy cap or some stricter across-the-board
standard, as the State sees fit, so long as the same
standard applies to those secular businesses. And the
Church has committed to social distancing, mask
requirements, and certain voluntary safety measures.
The State has not explained why a 50% occupancy
cap is good enough for secular businesses where
people congregate in large groups or remain in close
proximity for extended periods—such as at
restaurants, bars, casinos, and gyms—but is not good
enough for places of worship. Again, it does not suffice
to point out that some secular businesses, such as
movie theaters, are subject to the lesser of a 50-person
or 50% occupancy cap. The legal question is not
whether religious worship services are all alone in a
disfavored category, but why they are in the
disfavored category to begin with. See Smith, 494
U. S., at 884. And Nevada has not advanced a
sufficient public health rationale for that decision. To
reiterate, the State has substantial room to draw
lines, especially in an emergency or crisis. But
Nevada has not demonstrated that public health
justifies taking a looser approach with restaurants,
bars, casinos, and gyms and a stricter approach with
places of worship.
Second is the State’s economic rationale. The
State wants to jump-start business activity and
preserve the economic well-being of its citizens. The
State has loosened restrictions on restaurants, bars,
casinos, and gyms in part because many Nevada jobs
and livelihoods, as well as other connected Nevada

42a
businesses, depend on those restaurants, bars,
casinos, and gyms being open and busy. It is
understandable for the State to balance public health
concerns against individual economic hardship.
Almost every State and municipality in America is
struggling with that balance. After all, if preventing
transmission of COVID–19 were the sole concern, a
State would presumably order almost all of its
businesses to stay closed indefinitely. But the
economic devastation and the economic, physical,
intellectual, and psychological harm to families and
individuals that would ensue (and has already
ensued, to some extent) requires States to make
tradeoffs that can be unpleasant to openly discuss.
With respect to those tradeoffs, however, no
precedent suggests that a State may discriminate
against religion simply because a religious
organization does not generate the economic benefits
that a restaurant, bar, casino, or gym might provide.
Nevada’s rules reflect an implicit judgment that forprofit assemblies are important and religious
gatherings are less so; that moneymaking is more
important than faith during the pandemic. But that
rationale “devalues religious reasons” for congregating “by judging them to be of lesser import than
nonreligious reasons,” in violation of the Constitution.
Lukumi, 508 U. S., at 537–538. The Constitution does
not tolerate discrimination against religion merely
because religious services do not yield a profit.
More broadly, the State insists that it is in the
midst of an emergency and that it should receive
deference from the courts and not be bogged down in
litigation. If the courts simply enforce the constitutional prohibition against religious discrimination,

43a
however, the floodgates will not open. I agree that
courts should be very deferential to the States’ linedrawing in opening businesses and allowing certain
activities during the pandemic. For example, courts
should be extremely deferential to the States when
considering a substantive due process claim by a
secular business that it is being treated worse than
another business. Cf. Jacobson v. Massachusetts, 197
U. S. 11, 25–28 (1905). Under the Constitution, state
and local governments, not the federal courts, have
the primary responsibility for addressing COVID–19
matters such as quarantine requirements, testing
plans, mask mandates, phased reopenings, school
closures, sports rules, adjustment of voting and
election procedures, state court and correctional
institution practices, and the like.
But COVID–19 is not a blank check for a State to
discriminate against religious people, religious
organizations, and religious services. There are
certain constitutional red lines that a State may not
cross even in a crisis. Those red lines include racial
discrimination, religious discrimination, and contentbased suppression of speech. This Court’s history is
littered with unfortunate examples of overly broad
judicial deference to the government when the
government has invoked emergency powers and
asserted crisis circumstances to override equaltreatment and free-speech principles. The court of
history has rejected those jurisprudential mistakes
and cautions us against an unduly deferential judicial
approach, especially when questions of racial
discrimination, religious discrimination, or free
speech are at stake.

44a
Finally, the State relies on the Court’s recent
temporary injunction decision in South Bay United
Pentecostal Church v. Newsom, 590 U. S. ___ (2020).
There, the Court considered a California limitation on
crowd size at religious services. California treated
religious organizations better than some secular
organizations, like movie theaters, but worse than
other secular organizations, such as restaurants,
supermarkets, retail stores, pharmacies, hair salons,
offices, factories, and the like. In my view, the State
of California’s explanation, at least on that record, did
not persuasively distinguish religious services from
several of the favored secular organizations,
particularly restaurants and supermarkets. But the
Court ultimately denied the church’s request for an
emergency injunction. In his concurrence, THE CHIEF
JUSTICE appropriately emphasized both the high
standard for obtaining injunctive relief in this Court
and the ongoing and rapidly changing public health
emergency. THE CHIEF JUSTICE also noted that the
favored secular activities did not involve people who
“congregate in large groups” or “remain in close
proximity for extended periods.” Id., at ___ (opinion
concurring in denial of application for injunctive
relief) (slip op., at 2).
I continue to think that the restaurants and
supermarkets at issue in South Bay (and especially
the restaurants) pose similar health risks to socially
distanced religious services in terms of proximity to
others and duration of visit. I suspect that many who
have frequented all three kinds of establishments in
recent weeks and months would agree. So I continue
to respectfully disagree with South Bay.

45a
But accepting South Bay as a precedent, this case
is much different because it involves bars, casinos,
and gyms. Nevada’s COVID–19-based health
distinction between (i) bars, casinos, and gyms on the
one hand, and (ii) religious services on the other hand,
defies common sense. As I see it, the State cannot
plausibly maintain that those large secular
businesses are categorically safer than religious
services, or that only religious services—and not bars,
casinos, and gyms—entail people congregating in
large groups or remaining in close proximity for
extended periods of time. In any event, the State has
not yet supplied a sufficient justification for its
counterintuitive distinction.
*
*
*
The Constitution “protects religious observers
against unequal treatment.” Trinity Lutheran, 582
U. S., at ___ (slip op., at 6) (internal quotation marks
and alterations omitted). Nevada’s 50-person
attendance cap on religious worship services puts
praying at churches, synagogues, temples, and
mosques on worse footing than eating at restaurants,
drinking at bars, gambling at casinos, or biking at
gyms. In other words, Nevada is discriminating
against religion. And because the State has not
offered a sufficient justification for doing so, that
discrimination violates the First Amendment. I would
grant the Church’s application for a temporary
injunction. I respectfully dissent.

46a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CALVARY CHAPEL DAYTON
VALLEY,
Plaintiff-Appellant,
v.
STEVE SISOLAK, in his
official capacity as Governor of
Nevada; et al.,

No. 20-16169
D.C. No.
3:20-cv-00303RFB-VCF
District of
Nevada, Reno
ORDER

Defendants-Appellees.

Before: THOMAS, Chief Judge, and SCHROEDER,
Circuit Judge.
Appellant’s emergency motion for injunctive relief
pending appeal (Docket Entry No. 9) is denied. See
Hilton v. Braunskill, 481 U.S. 770, 776 (1987); see also
South Bay United Pentecostal Church v. Newsom, 140
S. Ct. 1613 (2020).
The previously established briefing schedule
remains in effect.

47a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CALVARY CHAPEL
DAYTON VALLEY,
Plaintiff-Appellant,
v.
STEVE SISOLAK, in his
official capacity as Governor
of Nevada; et al.,

No. 20-16169
D.C. No.
3:20-cv-00303RFB-VCF
District of
Nevada, Reno
ORDER

Defendants-Appellees.

Appellees Aaron Ford and Steve Sisolak’s Motion
to Dismiss Appeal (Dkt. No. 50) is DENIED. A party’s
“voluntary cessation of a challenged practice does not
deprive a federal court of its power to determine the
legality of the practice” if the challenged practice is
“reasonably . . . expected to recur.” Friends of the
Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528
U.S. 167, 189 (2000) (internal quotations and
citations omitted). Furthermore, a court may exercise
jurisdiction over cases that are “capable of repetition,

48a
yet evading review.” Kingdomware Techs., Inc. v.
United States, 136 S. Ct. 1969, 1976 (2016) (internal
quotations and citations omitted).
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Omar Cubillos
Deputy Clerk
Ninth Circuit Rule 27-7

49a
U.S. Constitution Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the government for a
redress of grievances.

U.S. Constitution Amendment XIV § 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

50a
Declaration of Emergency Directive 021 –
Phase Two Reopening Plan
WHEREAS, in late 2019, the United States Centers
for Disease Control and Prevention began monitoring
an outbreak of respiratory illness caused by a novel
coronavirus first identified in Wuhan, Hubei
Province, China; and
WHEREAS, on February 11, 2020, the International
Committee on Taxonomy of Viruses named this novel
coronavirus “severe acute respiratory syndrome
coronavirus 2 (SARS-Co V-2);” and
WHEREAS, on February 11, 2020, the World Health
Organization named the disease caused by SARSCoV-2, “COVID-19:” and
WHEREAS, the World Health Organization advises
that the novel coronavirus that causes COVID-19
virus is highly contagious, and spreads through
respiratory transmission, and direct and indirect
contact with infected persons and surfaces; and
WHEREAS, the World Health Organization advises
that respiratory transmission occurs through both
droplet and airborne transmission, where droplet
transmission occurs when a person is within 6 feet of
someone who has respiratory symptoms like coughing
or sneezing, and airborne transmission may occur
when aerosolized particles remain suspended in the
air and is inhaled; and
WHEREAS, the World Health Organization advises
that contact transmission occurs by direct contact
with infected people or indirect contact with surfaces
contaminated by the novel coronavirus; and

51a
WHEREAS, some persons with COVID-19 may
exhibit no symptoms but remain highly infectious;
and
WHEREAS, on March 5, 2020, Clark County and
Washoe County both reported the first known cases of
COVID-19 in the State of Nevada; and
WHEREAS, on March 11, 2020, the World Health
Organization declared COVID-19 a pandemic; and
WHEREAS, on March 12, 2020, I, Steve Sisolak,
Governor of the State of Nevada issued a Declaration
of Emergency to facilitate the State’s response to the
COVID-19 pandemic; and
WHEREAS, on March 13, 2020, Donald J. Trump,
President of the United States declared a nationwide
emergency pursuant to Sec. 501(b) of the Robert T.
Stafford Disaster Relief and Emergency Assistance
Act, 42 U.S.C. 5121-5207 (the “Stafford Act”); and
WHEREAS, on March 14, 2020, I formed a medical
advisory team to provide medical guidance and
scientifically based recommendations on measures
Nevada could implement to better contain and
mitigate the spread of COVID-19; and
WHEREAS, infectious disease and public health
experts advised that minimizing interpersonal
contact slows the rate at which the disease spreads,
and is necessary to avoid overwhelming healthcare
systems, commonly referred to as “flattening the
curve”; and
WHEREAS, since the March 12, 2020 Declaration of
Emergency, I have issued 20 Directives pursuant to
that order to provide for the safety, wellbeing, and

52a
public health of Nevadans and the administration of
the State of Nevada; and
WHEREAS, these Directives were promulgated to
reduce interpersonal contact and promote social
distancing to flatten the curve; and
WHEREAS, data showed that Nevada was one of the
top five states in the United States for social
distancing; and
WHEREAS, Nevada’s medical experts indicate that
the rate at which COVID-19 is spreading in the State
of Nevada has effectively slowed to a level that does
not jeopardize the state’s healthcare system due, in
part, to Nevadans following strict social distancing
measures individually and pursuant to Directives I
issued pursuant to the March 12, 2020, Declaration of
Emergency; and
WHEREAS, although the danger to Nevadans from
the COVID-19 disease has abated, the disease has not
been eliminated and measures that protect safety,
wellbeing, and public health of Nevadans must
remain in effect; and
WHEREAS, on April 21, 2020, the National
Governors Association issued guidance for a staged
reopening that protects the public’s health while
laying a strong foundation for long-term economic
recovery; and
WHEREAS, on April 30, 2020, I introduced the
Nevada United: Roadmap to Recovery plan that
outlined a phased approach to reopening Nevada
businesses and industry; and
WHEREAS, the Nevada United: Roadmap to
Recovery plan set forth a collaborative partnership

53a
between state and local governments that included
the formation of the Local Empowerment Advisory
Panel (“LEAP”) to serve as a resource to local
governments and local communities; and
WHEREAS, on May 9, 2020, the State of Nevada
entered Phase One of the Nevada United: Roadmap
to Recovery plan; and
WHEREAS, in the 19 days since Nevada entered
Phase One, our state has experienced a consistent and
sustainable downward trajectory in the percentage of
positive COVID-19 cases, a decrease in the trend of
COVID-19 hospitalizations, and a decline in our
cumulative test positivity rate from a maximum rate
of 12.2% on April 24, 2020 to 6.3% on May 27, 2020
with a 33-day downward trend; and
WHEREAS, the LEAP develops statewide guidelines
for social distancing and phased reopening in
consultation with local health authorities and other
subject matter experts; and
WHEREAS, NRS 414.060 outlines powers and duties
delegated to the Governor during the existence of a
state of emergency, including without limitation,
directing and controlling the conduct of the general
public and the movement and cessation of movement
of pedestrians and vehicular traffic during, before and
after exercises or an emergency or disaster, public
meetings or gatherings; and
WHEREAS, NRS 414.070 outlines additional powers
delegated to the Governor during the existence of a
state of emergency, including without limitation,
enforcing all laws and regulations relating to
emergency management and assuming direct

54a
operational control of any or all forces, including,
without limitation, volunteers and auxiliary staff for
emergency management in the State; providing for
and compelling the evacuation of all or part of the
population from any stricken or threatened area or
areas within the State and to take such steps as are
necessary for the receipt and care of those persons;
and performing and exercising such other functions,
powers and duties as are necessary to promote and
secure the safety and protection of the civilian
population; and
WHEREAS, the Nevada Attorney General opined in
Opinion Number 95-03 that in times of emergency
when the Governor’s authority under Nevada Revised
Statutes Chapter 414 is in effect, the powers of
political subdivisions to control business activity is
limited; and
WHEREAS, NRS 414.060(3)(f) provides that the
administrative authority vested to the Governor in
times of emergency may be delegated; and
WHEREAS, Article 5, Section 1 of the Nevada
Constitution provides: “The supreme executive power
of this State, shall be vested in a Chief Magistrate
who shall be Governor of the State of Nevada;” and
NOW, THEREFORE, by the authority vested in me
as Governor by the Constitution and the laws of the
State of Nevada and the United States, and pursuant
to the March 12, 2020, Emergency Declaration,
IT IS HEREBY ORDERED THAT:

55a
SECTION
1:

SECTION
2:

SECTION
3:

To the extent this Directive conflicts
with earlier Directives or regulations
promulgated pursuant to the March
12, 2020 Declaration of Emergency,
the provisions of this Directive shall
prevail.
Consistent with the Nevada United:
Roadmap to Recovery plan for a
federally supported, state managed,
and locally executed reopening
approach, county governments are
hereby delegated the authority to
impose additional COVID-19 related
restrictions on businesses and public
activities. Restrictions imposed by
county government may exceed the
standards imposed by Declaration of
Emergency Directives or set forth
under the LEAP guidelines, but in no
case shall county-guidelines be more
permissive than the provisions of this
Directive.
Businesses may adopt practices that
exceed the standards imposed by
Declaration of Emergency Directives,
guidelines promulgated by the
Nevada State Occupational Safety
and Health Administration (NV
OSHA) or LEAP guidelines, but in no
case shall business practices be more
permissive than the provisions of this
Directive or those imposed by NV
OSHA and the LEAP.

56a
SECTION
4:

SECTION
5:

SECTION
6:

Businesses performing non-retail
services, including without limitation,
legal services, accounting services, or
real estate services, are encouraged to
conduct business telephonically or
virtually to the greatest extent practicable. These businesses are
encouraged to permit employees to
work from home to the greatest
extent practicable.
For the purposes of this Directive,
“vulnerable persons” are defined as
those who are at heightened risk of
complications from COVID-19
disease, and include:
1. Individuals who are 65 years of
age and older;
2. Individuals with chronic lung
disease or moderate to severe
asthma;
3. Individuals who have serious
heart conditions;
4. Individuals who are
immunocompromised;
5. Pregnant women; or
6. Individuals determined to be
high risk by a licensed
healthcare provider.
All vulnerable persons are strongly
encouraged to stay at home to the
greatest extent possible, except when
necessary to provide, support,
perform, or operate necessary
activities, minimum basic operations,

57a

SECTION
7:

SECTION
8:

critical government functions,
necessary travel, or essential
businesses.
The phrase “social distancing”
references guidance promulgated by
the United States Centers for Disease
Control and Prevention, including
without limitation, maintaining at
least six feet of physical distancing
from other individuals. The phrase
“sanitation requirements,” “sanitation
measures,” and “sanitation
guidelines” includes without
limitation, washing hands with soap
and water for at least twenty seconds
as frequently as possible, using hand
sanitizer, covering coughs or sneezes
(into the sleeve or elbow, not hands),
regularly cleaning high-touch
surfaces, and not shaking hands.
All Nevadans are strongly encouraged
to stay in their residences to the
greatest extent possible. Recognizing
that COVID-19 is still present in
Nevada and highly contagious,
Nevadans are advised that they are
safer at home and should avoid
interpersonal contact with persons
not residing in their households to the
extent practicable. Nevadans are
urged to avoid travel to the greatest
extent practicable. To reduce the
spread of COVID-19 via respiratory
transmission, the Nevada public

58a

SECTION
9:

SECTION
10:

SECTION
11:

should utilize face coverings in public
spaces.
Pursuant to NRS 441A.180, persons
testing positive for COVID-19 shall
stay at home and “self quarantine” for
a minimum of two weeks, except as
necessary to care for themselves or
seek medical care. Persons
determined to be in contact with an
individual who tested positive for
COVID-19 must quarantine and stay
at home for two weeks, or until a
negative test result has been
received.
Section 1 of Directive 007 is hereby
further amended to provide that
effective 12:01 am on May 29, 2020,
the Nevada general public shall not
gather in groups of more than fifty in
any indoor or outdoor area subject to
the limitations of this section,
whether publicly owned or privately
owned where the public has access by
right or invitation, express or implied,
whether by payment of money or not.
Section 3 of Directive 007 shall
remain in force.
Communities of worship and faithbased organizations, including
without limitation, churches,
synagogues, mosques, and temples,
are strongly encouraged to offer
online and drive-up services to the
greatest extent possible. Effective

59a
12:01 am on May 29, 2020, consistent
with other Directives on public
gatherings, houses of worship may
conduct indoor in-person services in a
manner so that no more than fifty
persons are gathered, and all social
distancing requirements are satisfied.
This limitation shall not apply to
houses of worship offering drive-up
services pursuant to Section 10 of
Directive 016. Houses of worship
offering indoor, in-person services are
encouraged to follow the guidelines
promulgated by the LEAP, as well as
the following provisions that are
consistent with other Directives on
public gatherings:
1. Seating must be arranged to
ensure a minimum of six feet of
separation between
congregants who do not reside
in the same household.
2. Participants, including leaders
and staff, are encouraged to
utilize face coverings to the
greatest extent practicable.
3. Houses of worship are
encouraged to stagger services
so that the entrance and egress
of congregants for different
services do not result in a
gathering greater than fifty
persons, and to provide proper
sanitation between services.

60a
SECTION
12:

SECTION
13:

SECTION
14:

All employers must take proactive
measures to ensure compliance with
the social distancing and sanitation
guidelines. All employers shall
continue to require employees who
interact with the public to wear face
coverings, to the maximum extent
possible, and shall abide by all other
guidelines promulgated by NV OSHA.
All businesses must adopt measures
that meet or exceed the standards
promulgated by NV OSHA to
minimize the risk of spread of
COVID-19. All businesses are
encouraged to permit their employees
to work from home to the maximum
extent practicable. NV OSHA shall
continue to ensure that businesses
reopened pursuant to this Directive
or otherwise operating during the
state of emergency provide adequate
protections to their workers and
adopt sanitation protocols that
minimize the risk of spread of
COVID-19 among their workforce. NV
OSHA shall enforce all violations of
its guidance, protocols, and
regulations.
All employers are encouraged to
consult guidelines issued by the
LEAP for industry-specific
information for operating in the
phased reopening under the Nevada
United: Roadmap to Recovery plan.

61a

SECTION
15:

The LEAP guidelines will be posted
on the Nevada Health Response
website at
https://nvhealthresponse.nv.gov/.
To the maximum extent practicable,
employers and employees are strongly
encouraged to incorporate the
following protocols into their business
operations:
1. Encourage customers to wear
face coverings
2. Continue to encourage
telework, whenever possible
and feasible with business
operations
3. Return to work in phases
4. Close common areas where
personnel are likely to
congregate and interact, or
enforce strict social distancing
protocols
5. Strongly consider special
accommodations for personnel
who are members of a
vulnerable population
6. Encourage employees to do a
self-assessment each day in
order to check if they have any
COVID-19 type symptoms, for
example, fever, cough or
shortness of breath
7. Practice hand hygiene

62a

SECTION
16:

8. Perform frequent enhanced
environmental cleaning of
commonly touched surfaces
9. Implement separate operating
hours for vulnerable
populations
10. Provide signage advising the
public of appropriate social
distancing within the facility,
including six feet of social
distancing from other
individuals; and
11. Provide readily available hand
sanitizer or other sanitizing
products for employees and
customers
All employers operating under Phase
Two are encouraged to accommodate
vulnerable persons and workers
caring for a child whose school or
place of care is closed, or childcare
provider is unavailable, for reasons
related to COVID-19, by promoting
telecommuting or other remote work
options, flexible schedules, or other
means. To the greatest extent
possible, employers should extend
similar accommodations to workers
who live in the same household as a
vulnerable person. Upon request, all
employers covered by the Families
First Coronavirus Response Act
(“FFCRA”) must provide leave to
eligible employees as provided by the

63a

SECTION
17:

Act. Employers covered by the
FFCRA must notify covered
employees seeking accommodations of
their eligibility. The provisions of this
Section shall be in effect for the
duration that the March 12, 2020
Declaration of Emergency shall be in
effect, unless specifically terminated
by a subsequent Directive.
All businesses that engage in retail
sales may continue to provide retail
sales on a curbside or home delivery
basis, or allow onsite customer access,
with a maximum occupancy of 50%
based on listed fire code capacity.
Businesses are strongly encouraged
to promote home delivery, curbside
delivery, walk-up, drive-through, or
window service whenever possible.
Businesses must adopt measures
promulgated by NV OSHA to
minimize the risk of spread of
COVID-19 including social distancing
and sanitation measures, and abide
by all other guidance promulgated
pursuant to this and other Directives.
To the maximum extent practicable,
businesses must provide services in a
manner disallowing the formation of
queues whereby persons congregate
in a manner that violates the social
distancing guidelines above. All
businesses are encouraged to permit
their employees to work from home to

64a

SECTION
18:

SECTION
19:

SECTION
20:

the maximum extent practicable.
Retail businesses operating in openair malls or strip malls are expressly
permitted to operate under the
conditions set forth in this Directive.
Effective 12:01 am on May 29, 2020,
indoor malls may open to the public,
and allow retail businesses to
operate. Businesses engaged in retail
sales at indoor malls are subject to
the same restrictions as retail
businesses operating at other
locations, as provided in Section 17 of
this Directive. Mall operators shall
discourage the public from
congregating by removing or
prohibiting access to indoor and
outdoor seating, except at food courts.
Food courts may reopen to customers,
but must abide by all restrictions
imposed on restaurants pursuant to
Section 25 of this Directive, including
without limitation, sanitation
protocols, and social distancing
seating requirements.
The limitations imposed on drive-in
movie theaters in Section 14 of
Directive 018 are hereby amended to
provide that concession stands may
serve food and drinks on a
prepackaged basis only.
Effective 12:01 am on May 29, 2020,
non-retail indoor venues, including
without limitation, indoor movie

65a

SECTION
21:

SECTION
22:

theaters, bowling alleys, or arcades
may reopen to the public. Indoor
movie theaters operating pursuant to
this section must ensure that
occupancy shall not exceed the lesser
of 50% of the listed fire code capacity
or fifty persons, and implement
measures to ensure that all social
distancing requirements are satisfied.
All other businesses operating
pursuant to this section must ensure
that occupancy shall not exceed 50%
of the listed fire code capacity, and
implement measures to ensure that
all social distancing requirements are
satisfied. Businesses operating
pursuant to this Section shall limit
food and beverage sales to
prepackaged products only.
Effective 12:01 am on May 29, 2020,
non-retail outdoor venues, including
without limitation, miniature golf
facilities, amusement parks, theme
parks may reopen to the public.
Businesses operating pursuant to this
section must ensure that occupancy
shall not exceed 50% of the listed fire
code capacity, and implement
measures to ensure that all social
distancing requirements are satisfied.
Effective 12:01 am on May 29, 2020,
musical performances, live entertainment, concerts, competitions, sporting
events, and any events with live

66a

SECTION
23:

SECTION
24:

performances may resume, but shall
remain closed for public attendance.
Events held pursuant to this section
may be recorded, filmed, streamed or
broadcast to the public. Live events
ordinarily regulated by the Nevada
Athletic Commission or the Nevada
Gaming Control Board must be
approved by the applicable board
prior to the event. All other live
events under this Section must be
approved by the Nevada Department
of Business & Industry, Division of
Industrial Relations prior to the
event. Events held pursuant to this
Section must additionally comply
with all guidance promulgated by NV
OSHA.
Nail care salons and hair salons
licensed by the Nevada Board of
Cosmetology and barber shops
licensed by the State Barber’s Health
and Sanitation shall continue to
operate under the Phase One
conditions set forth in Section 16 of
Directive 018.
Effective 12:01 am on May 29, 2020,
estheticians and salons or businesses
that provide aesthetic skin services,
including without limitation, facials,
hair removal, tanning, eyelash
services, professional make-up artist
services, eyebrow threading, and salt
therapy, may reopen to the public

67a
pursuant to all protocols and
guidelines promulgated by the
Nevada State Board of Cosmetology
and LEAP, as well as the following
provisions:
1. Partitions or walls between
each chair or workstation are
strongly encouraged.
2. Establishments with walls or
partitions between stations or
chairs may utilize all stations,
but under no circumstances
may more than one customer or
client be seated at any given
station or chair.
3. Establishments without walls
or partitions between stations
must only seat customers or
clients at every other station or
chair, or arrange stations or
chairs so that a minimum of 6
feet of separation between
customers is maintained.
4. Establishments must not
accept customers or clients on a
walk-in basis, and estheticians
and technicians must not serve
or accept appointments for
more than one customer at any
given time.
5. Customers waiting for
appointments must wait
outside the facility and must
practice social distancing by

68a

6.

7.

8.

9.

maintaining a minimum of 6
feet of separation between
customers not residing in the
same household.
Make-up application services
must use disposable tools or
sanitize tools between
customers.
Estheticians, technicians, and
other employees must wear
face coverings while interacting
with customers and clients.
Customers and clients should
wear face coverings to the
extent practicable.
These businesses must follow
the Enhanced Sanitation
Guidelines for Salons in
Response to COVID-19 issued
by the Nevada State Board of
Cosmetology. The Board is
directed to take action,
including the closure of salons
and businesses, for all actions
by licensees not in compliance
with these Guidelines for
Response to COVID-19.
With the exception of pool
usage pursuant to Section 29 of
this Directive, steam rooms,
saunas, portable saunas, vapor
baths, salt therapy rooms, hot
tubs, and other communal

69a

SECTION
25:

facilities shall remain closed to
the public.
Restaurants and food establishments
shall continue to operate under the
Phase One conditions set forth in
Section 17 of Directive 018, but may
additionally utilize tables and serve
food within the bar area. Establishments operating under this provision
shall abide by the following
provisions:
1. Establishments shall require
employees to wear face
coverings, and should
encourage customers to wear
face coverings to the maximum
extent practicable.
2. Areas within establishments
that promote congregation,
including without limitation,
dance floors, arcade areas,
billiards, and similar activities
shall remain closed to the
public.
3. Customers may sit at and be
served at bar tops only if bar
top seating is limited such that
barstools are spaced a
minimum of six feet apart from
other barstools of other
customers not in the same
party.
4. Buffets, cafeterias, and selfserve dining facilities shall

70a

SECTION
26:

remain closed until further
notice.
Section 18 of Directive 018 is hereby
amended to provide that effective
12:01 am on May 29, 2020, breweries,
distilleries, and wineries not licensed
to serve food may open to the public
subject to the following provisions:
1. Bartenders, waitresses, and
other employees must wear
face coverings.
2. The maximum occupancy of
these establishments during
Phase Two shall not exceed
50% of the listed fire code
capacity.
3. Tables, booths, or seats must
be spaced, or customers seated
a minimum of 6 feet apart from
other customers not in the
same party. Customers sitting
at a table or booth must only be
served via table service and
may not order from the bar top
area.
4. Customers may sit at and be
served at bar tops only if bar
top seating is limited such that
barstools are spaced a
minimum of six feet apart from
other barstools of other
customers not in the same
party.

71a

SECTION
27:

SECTION
28:

5. Customers waiting to dine
onsite must wait outside the
establishment until they can be
seated and must practice social
distancing by maintaining a
minimum of 6 feet of
separation between customers
not residing in the same
household or in the same party.
6. Breweries, distilleries, and
wineries must continue to
operate in a manner consistent
with worker safety guidelines
promulgated by the NV OSHA.
The following non-essential
businesses shall remain closed during
Phase Two of the Nevada United:
Roadmap to Recovery plan:
1. Nightclubs
2. Day clubs
3. Brothels
4. Adult entertainment facilities
Effective 12:01 am on May 29, 2020,
gyms, fitness facilities, and fitness
studios, including but not limited to
dance and yoga studios, may reopen
to the public. Gyms, fitness facilities,
and fitness studios that provide
services to ten or fewer people at a
time may reopen only if they are able
to provide services in a manner that
does not violate social distancing
protocols. Establishments providing
services to more than ten patrons at a

72a
time shall limit customer access so as
not to exceed a maximum occupancy
of 50% based on listed fire code
capacity. All gyms, fitness facilities,
and fitness studios must, without
exception, abide by all protocols
promulgated by NV OSHA, including
sanitation protocols. In addition to
the protocols promulgated by NV
OSHA and the LEAP, all gyms,
fitness facilities, and fitness studios
must abide by the following
provisions:
1. Employees, trainers, and
instructors must wear face
coverings to the maximum
extent practicable, and
facilities should encourage
patrons to wear face coverings
to the maximum extent
practicable.
2. Regardless of listed fire code
capacity, facilities must limit
access to patrons to ensure that
occupancy at any given time
does not become sufficiently
dense so as to violate social
distancing protocols.
3. Equipment must be regulated
to ensure a minimum of six feet
of social distancing between
users, and equipment should
be moved, designated
inoperable, or turned off to

73a

SECTION
29:

ensure that social distancing
standards are maintained.
4. Group fitness classes must be
limited to ensure at least six
feet of separation between
participants.
5. Contact sports, including
without limitation, martial
arts, basketball, wrestling, and
boxing may only be offered in a
manner where participants do
not physically contact other
participants, or activities that
require participants to perform
within six feet of each other.
6. Locker rooms, showers, steam
rooms, saunas, portable
saunas, vapor baths, salt
therapy rooms, hot tubs, and
other communal facilities, not
to include restrooms, shall
remain closed to the public.
7. Pools may open to patrons, but
all pool usage is subject to the
provisions of Section 29 of this
Directive.
8. Child care facilities in gyms
must remain closed.
Effective 12:01 am on May 29, 2020,
all public aquatic venues, may reopen
to the public. For the purposes of this
Directive, “public aquatic venues”
shall include without limitation
venues operated and managed by city

74a
and county governments; apartment
complexes; home owners associations
(HOAs); membership clubs including
gyms or other privately owned
aquatic centers accessible to the
public through paid memberships or
fees; schools; and hotels, motels,
resorts, time-shares, and other guest
lodging facilities. Facilities reopening
pursuant to this section must abide
by the following provisions:
1. Capacity at all public aquatic
venues shall be limited to a
maximum occupancy of 50%
based on listed fire code
capacity.
2. A minimum of six feet of social
distancing between users is
required in the pool, the pool
deck, and any other areas at
the facility. This limitation
shall not apply to persons
residing in the same household.
3. Hot tubs shall remain closed to
the public.
4. Attendees should be
encouraged to bring their own
towels, equipment, and arrive
and minimize the time spent in
the facility by arriving and
leaving wearing their
swimsuit.
5. Public aquatic venues with
locker rooms shall limit access

75a
to lockers and locker rooms,
but should maintain public
restrooms and shower facilities
and limit the number of users
at any one time.
6. Deck layouts and furniture in
standing and seating areas
must be arranged to maintain
social distancing standards of
at least six feet of separation
between persons. This
requirement shall not apply to
persons residing in the same
household.
7. In addition to the provisions
above, aquatic schools offering
swim lessons must require
instructors to wear face
coverings to the maximum
extent practicable, and limit
access to one parent or
guardian per student.
8. Water parks shall control
access to the public to ensure
that the occupancy does not
exceed 50% capacity based on
applicable fire code or is
sufficiently high that social
distancing standards are
violated. Water parks shall
limit locker room access to
restroom usage only. All
employees must wear face
coverings to the maximum

76a

SECTION
30:

SECTION
31:

extent practicable. Concession
sales at water parks must be
limited to prepackaged foods
only.
9. In addition to the provisions
above, all public aquatic
venues are encouraged to abide
by all other guidelines
promulgated by the LEAP.
Effective 12:01 am on May 29, 2020,
museums, art galleries, zoos, and
aquariums may reopen to the public.
Capacity at these facilities shall be
limited to the lesser of 50% based on
listed fire code capacity or fifty
persons. Interactive exhibits which
encourage touching must remain
closed and inaccessible to the public.
Facilities operating pursuant to this
Section must ensure that employees
wear face coverings and shall abide
by all other guidelines promulgated
by NV OSHA.
Effective 12:01 am on May 29, 2020,
body art and piercing facilities may
reopen to the public, subject to the
following provisions:
1. Capacity at these facilities
shall be limited to a maximum
occupancy of 50% based on
listed fire code capacity.
2. Partitions or walls between
each workstation are strongly
encouraged.

77a
3. Establishments with walls or
partitions between
workstations may utilize all
stations, but under no
circumstances may more than
one customer or client be
seated at any given station or
chair.
4. Establishments without walls
or partitions between stations
must ensure that a minimum
of 6 feet of separation between
customers is maintained.
5. Establishments must not
accept customers or clients on a
walk-in basis, and artists must
not serve or accept
appointments for more than
one customer at any given
time.
6. Customers waiting for
appointments must wait
outside the facility and must
practice social distancing by
maintaining a minimum of 6
feet of separation between
customers not residing in the
same household.
7. Artists, employees, and
customers must wear face
coverings at all times. Body art
and piercings that require
mask removal, including
without limitation, work

78a

SECTION
32:

SECTION
33:

around the mouth and nose are
prohibited.
8. Access must be limited to
customers only; persons
accompanying customers must
not be inside the facility while
services are performed.
9. Artists and facilities operating
pursuant to this section must
abide by all sanitation and
other guidelines promulgated
by NV OSHA.
Effective 12:01 am on May 29, 2020,
trade schools and technical schools
may reopen to the public. Occupancy
in classrooms and instructional areas
at schools operating pursuant to this
Section shall be limited to the lesser
of 50% of maximum occupancy of
based on listed fire code capacity or
fifty persons, and must abide by all
guidelines promulgated by NV OSHA.
These provisions shall not be
construed to limit the reopening plans
of Nevada System of Higher
Education institutions, schools under
county school districts, charter
schools, and the University School for
Profoundly Gifted Students.
Summer camps may continue to
operate pursuant to all applicable
licensure, regulatory, and statutory
requirements and are encouraged to

79a

SECTION
34:

following guidelines issued by the
LEAP.
Effective 12:01 am on May 29, 2020,
massage therapists, massage
establishments, and other
professionals licensed by the Nevada
State Board of Massage Therapy may
reopen to the public subject to the
following provisions:
1. Massage establishments must
follow all NV OSHA and
Nevada State Board of
Massage Therapy sanitization
guidelines.
2. Massage therapists,
masseuses, and other
employees must wear face
coverings at all times.
Establishments should strongly
encourage customers to wear
face coverings to the maximum
extent practicable.
3. Massage therapists and
massage establishments must
not accept customers or clients
on a walk-in basis, and must
not serve or accept
appointments for more than
one customer at any given
time.
4. Customers waiting for
appointments must wait
outside the facility and must
practice social distancing by

80a

SECTION
35:

maintaining a minimum of 6
feet of separation between
customers not residing in the
same household.
5. Out-call or in-home service are
permitted, subject to all
sanitation protocols and face
covering requirements
provided in this section.
6. Establishments, including day
and overnight spas, may
reopen for massage services as
allowed in the Phase 2
Directive. Spas or other
establishments that open in
Phase 2 must close and
prohibit use of steam rooms,
saunas, portable saunas, vapor
baths, salt therapy rooms, hot
tubs, and any other communal
facilities (except for pools as
allowed in the Phase 2
Directive).
7. Persons licensed by the Nevada
State Board of Massage
Therapy must abide by all
guidelines promulgated by the
Board. The Board is directed to
impose disciplinary measures
against licensees who violate
this provision.
Directive 002 and Section 021 of
Directive 018 are hereby terminated.
The Nevada Gaming Control Board

81a

SECTION
36:
SECTION
37:

shall promulgate requirements for a
phased and incremental resumption
of gaming operations, with openings
commencing no sooner than 12:01 am
June 4, 2020. Failure of a gaming
licensee to comply with any such
requirements shall be considered
injurious to the public health, safety,
morals, good order and general
welfare of the inhabitants of the
State, and constitute a failure to
comply with this Directive. The
Nevada Gaming Control Board is
hereby authorized to enforce this
Directive as necessary, including, but
without limitation, pursuing
disciplinary action to limit, condition,
suspend, and/or revoke a license,
and/or impose a monetary fine
against a licensee in accordance with
the Gaming Control Act.
Cannabis dispensaries shall continue
to operate under the Phase One
conditions set forth in Section 22 of
Directive 018.
Previous Directives not specifically
referenced herein remain in effect for
the duration specified in those
specific Directives or subsequent
extensions, unless specifically
terminated or extended renewed by
subsequent Directive. Directive 018
and all Directives incorporated by
reference within Directive 018 with

82a

SECTION
38:

SECTION
39:

specific expiration dates are extended
until June 30, 2020.
Pursuant to NRS 414.060(3)(f), I
hereby delegate to state agencies, and
each county of this state, to include
the consolidated municipality of
Carson City, and local municipalities,
the authority to adopt additional
protective measures intended to
combat the spread of COVID-19,
including without limitation, stay at
home and face covering orders, so
long as those measures are at least as
restrictive as those imposed by all
Directives promulgated pursuant to
the Declaration of Emergency for
COVID-19 issued on March 12, 2020.
Additional restrictive measures
adopted by counties and
municipalities may be implemented
without additional approval by the
State.
Pursuant to NRS 414.060(3)(f), I
hereby authorize all local, city, and
county governments, and state
agencies to enforce this Directive and
regulations promulgated thereunder,
including but not limited to,
suspending licenses, revoking
licenses, or issuing penalties for
violating business, professional,
liquor, tobacco, or gaming licenses
issued by the local jurisdiction for
actions that jeopardize the health,

83a

SECTION
40:
SECTION
41:

safety, or welfare of the public;
conduct which may injuriously affect
the public health, safety, or welfare;
conduct that may be detrimental to
the public peace, health, or morals; or
any other applicable ordinance or
requirement for such a license.
The State of Nevada shall retain all
authority vested in the Governor
pursuant to NRS Chapter 414.
This Directive shall remain in effect
through June 30, 2020, unless
terminated or extended by a
subsequent Directive promulgated
pursuant to the March 12, 2020
Declaration of Emergency to facilitate
the State’s response to the COVID-19
pandemic.

COVID-19 EMERGENCY DIRECTIVE 021 ORDERS

84a
Declaration of Emergency Directive 033
WHEREAS,in late 2019, the United States Centers
for Disease Control and Prevention began monitoring
an outbreak of respiratory illness caused by a novel
coronavirus first identified in Wuhan, Hubei
Province, China; and
WHEREAS, on February 11, 2020, the International
Committee on Taxonomy of Viruses named this novel
coronavirus “severe acute respiratory syndrome
coronavirus 2 (SARS-CoV-2);” and
WHEREAS, on February 11, 2020, the World Health
Organization named the disease caused by SARSCoV-2, “COVID-19:” and
WHEREAS, the World Health Organization advises
that the novel coronavirus that causes COVID-19
virus is highly contagious, and spreads through
respiratory transmission, and direct and indirect
contact with infected persons and surfaces; and
WHEREAS, the World Health Organization advises
that transmission occurs through both droplet and
airborne transmission, where droplet transmission
occurs when a person is in close proximity to someone
who is infected with COVID-19; and
WHEREAS, the World Health Organization advises
that contact transmission occurs by direct contact
with infected people or indirect contact with surfaces
contaminated by the novel coronavirus; and
WHEREAS, on March 5, 2020, Clark County and
Washoe County both reported the first known cases of
COVID-19 in the State of Nevada; and

85a
WHEREAS, on March 11, 2020, the World Health
Organization declared COVID-19 a pandemic; and
WHEREAS, on March 12, 2020, I, Steve Sisolak,
Governor of the State of Nevada issued a Declaration
of Emergency to facilitate the State’s response to the
COVID-19 pandemic; and
WHEREAS, on March 13, 2020, Donald J. Trump,
President of the United States declared a nationwide
emergency pursuant to Sec. 501(b) of the Robert T.
Stafford Disaster Relief and Emergency Assistance
Act, 42 U.S.C. 5121-5207 (the “Stafford Act”); and
WHEREAS, on March 14, 2020, I formed a medical
advisory team to provide medical guidance and
scientifically based recommendations on measures
Nevada could implement to better contain and
mitigate the spread of COVID-19; and
WHEREAS, infectious disease and public health
experts advised that minimizing interpersonal
contact slows the rate at which the disease spreads,
and is necessary to avoid overwhelming healthcare
systems, commonly referred to as “flattening the
curve”; and
WHEREAS, since the March 12, 2020 Declaration of
Emergency, I have issued 32 Directives pursuant to
that order to provide for the safety, wellbeing, and
public health of Nevadans and the administration of
the State of Nevada; and
WHEREAS, these Directives were promulgated to
reduce interpersonal contact and promote social
distancing to flatten the curve; and

86a
WHEREAS, Nevada’s hospitalization rate for
suspected and confirmed COVID-19 cases has
trended downward since the beginning of August
2020; and
WHEREAS, NRS 414.060 outlines powers and duties
delegated to the Governor during the existence of a
state of emergency, including without limitation,
directing and controlling the conduct of the general
public and the movement and cessation of movement
of pedestrians and vehicular traffic during, before and
after exercises or an emergency or disaster, public
meetings or gatherings; and
WHEREAS, NRS 414.070 outlines additional powers
delegated to the Governor during the existence of a
state of emergency, including without limitation,
enforcing all laws and regulations relating to
emergency management and assuming direct
operational control of any or all forces, including,
without limitation, volunteers and auxiliary staff for
emergency management in the State; providing for
and compelling the evacuation of all or part of the
population from any stricken or threatened area or
areas within the State and to take such steps as are
necessary for the receipt and care of those persons;
and performing and exercising such other functions,
powers and duties as are necessary to promote and
secure the safety and protection of the civilian
population; and
WHEREAS, NRS 414.060(3)(f) provides the
administrative authority vested to the Governor in
times of emergency may be delegated; and
WHEREAS, Article 5, Section 1 of the Nevada
Constitution provides: “The supreme executive power

87a
of this State, shall be vested in a Chief Magistrate
who shall be Governor of the State of Nevada;” and
NOW, THEREFORE, by the authority vested in me
as Governor by the Constitution and the laws of the
State of Nevada and the United States, and pursuant
to the March 12, 2020, Emergency Declaration,
IT IS HEREBY ORDERED THAT:
SECTION The limitations imposed by previous
1:
Directives or regulations are hereby
superseded by the explicit provisions
of this Directive. Any provisions not
addressed by this Directive shall
remain in force as provided by
previous Directives or regulations
promulgated pursuant to the March
12, 2020 Declaration of Emergency.
SECTION For the purposes of this Directive and
enforcement thereof, a gathering shall
2:
be defined as an activity that draws
persons to (1) the same space, (2) at
the same time, (3) for the same purpose, and ( 4) for the same duration.
SECTION For the purposes of this Directive and
enforcement thereof, a gathering space
3:
shall be defined as a discrete area
with defined boundaries separate and
apart from adjacent spaces. Such
boundaries shall be characterized by
rigid wall structures, separate ownership or property interests, separate
ventilation systems, or sufficient
distance between adjacent occupied
spaces that precludes the

88a
intermingling of users in a manner
that exceeds the gathering limits in
this Directive.
A unique indoor gathering space shall
additionally be defined by its listed
fire code capacity. Spaces lacking a
unique maximum capacity may not be
deemed a distinct gathering space.
SECTION The phrase “social distancing”
4:
references guidance promulgated by
the United States Centers for Disease
Control and Prevention, including
without limitation, maintaining at
least six feet of physical distancing
from other individuals.
SECTION Effective 12:01 am on October 1, 2020,
5:
capacity limitations at venues and
events shall not include staff, workers,
performers, broadcast personnel, or
other personnel necessary to conduct
business, perform services, or host
events.
SECTION All restrictions imposed by this and
any other Directive still in effect shall
6:
be deemed statewide baseline mitigation standards. The COVID-19
Mitigation and Management Task
Force (“Mitigation Task Force”)
established by Directive 030 may
continue to impose additional restrictions on counties with elevated
COVID-19 risks pursuant to Directive
030.

89a
SECTION Section 11 of Directive 021 is hereby
7:
terminated. Effective 12:01 am on
October 1, 2020, houses of worship,
including without limitation,
churches, synagogues, mosques, and
temples, may conduct indoor in-person
services in a manner so that occupancy shall not exceed the lesser of
50% of the listed fire code capacity or
250 persons, and all social distancing
requirements are satisfied. This
limitation shall not apply to houses of
worship offering drive-up services
pursuant to Section 10 of Directive
016 which imposes no limitations on
number of participants.
Houses of worship offering indoor, inperson services are encouraged to
follow the guidelines promulgated by
the Nevada Department of Business
and Industry or its constituent
agencies, as well as the following
provisions that are consistent with
other Directives on public gatherings:
1. Seating must be arranged to
ensure a minimum of six feet of
separation between congregants
who do not reside in the same
household.
2. Participants, including leaders
and staff, must wear face
coverings as required by
Directive 024.

90a
3. Houses of worship are encouraged to stagger services so that
the entrance and egress of
congregants for different
services do not result in a
gathering exceeding the lesser
of 250 persons or 50% of the
listed fire code capacity, and to
provide proper sanitation
between services.
4. Houses of worship are strongly
encouraged to offer online and
drive-up services to the greatest
extent possible.
Houses of worship with a listed fire
code capacity of fewer than 100
persons may conduct indoor services for up to 50 persons if they are
able to do so in a manner consistent
with social distancing guidelines
promulgated by the Nevada Department of Business and Industry, but
in no instance may houses of
worship exceed their listed fire code
capacity.
SECTION Effective 12:01 a.m. on October 5,
8:
2020, all businesses and venues
subject to capacity limitations shall
post signs at public entrances
identifying their COVID-19-adjusted
capacity based on the occupancy
limitations imposed by this and other
Directives. These signs shall conform
to guidelines which shall be promul-

91a
gated by the Nevada Department of
Business and Industry or its
constituent agencies.
SECTION Section 1 of Directive 007, Section 7 of
9:
Directive 018, and Section 10 of
Directive 021 are hereby terminated.
Effective 12:01 a.m. on October 1,
2020, unless otherwise provided by
other Sections of this Directive, public
gatherings are restricted to the lesser
of 250 persons, or 50% of the listed fire
code capacity of the area in which such
gathering shall occur. This restriction
shall not apply to any area with a
listed fire code capacity of less than
100 persons, which may allow up to 50
persons to gather, provided that this
may occur without violating social
distancing requirements.
This provision shall apply to any area,
whether publicly owned or privately
owned where the public has access by
right or invitation, express or implied,
whether by payment of money or not,
including without limitation, parks,
basketball courts, volleyball courts,
baseball fields, football fields, rivers,
lakes, beaches, streets, convention
centers, libraries, parking lots, and
private clubs. This provision shall not
be construed to apply to the gathering
of persons working at or patronizing
businesses operating pursuant to this

92a
Directive or providing emergency or
medical services to the public.
SECTION Section 20 and Section 21 of Directive
10:
021 are hereby terminated. Effective
12:01 a.m. on October 1, 2020, nonretail indoor and outdoor venues,
including without limitation, bowling
alleys, arcades, miniature golf
facilities, amusement parks, and
theme parks may allow access to the
public so that occupancy shall not
exceed 50% of the listed fire code
capacity, and all social distancing
requirements are satisfied. Businesses
operating pursuant to this Section
shall limit food and beverage sales to
prepackaged products only.
Businesses operating pursuant to this
Section with a listed fire code capacity
of fewer than 100 persons may allow
access to up to 50 persons if they are
able to do so in a manner consistent
with social distancing guidelines
promulgated by the Nevada Department of Business and Industry or its
constituent agencies, but in no
instance may they exceed their listed
fire code capacity.
SECTION Section 22 of Directive 021 is hereby
11:
terminated. Effective 12:01 a.m. on
October 1, 2020, musical performances, live entertainment, concerts,
competitions, sporting events, and any

93a
events with live performances may
permit public attendance subject to
the provisions of this Directive.
For the purposes of this Directive,
fixed seating capacity shall be defined
as seats which are not portable or
stackable, but which are secured to
the floor in some fashion, such as by
bolts. Facilities with fixed seating
without dividing arms shall calculate
seating capacity based on occupant
load, but in no instance shall such
calculation be based on less than one
person for each 18 inches (457 mm) of
seating length.
Venues with fixed seating capacity of
2,500 or greater may permit public
attendance at live events subject to
the following provisions:
1. Attendance by the public may
not exceed 10% of fixed seating
capacity.
2. All attendees must be assigned
seats pursuant to the other
provisions of this section.
“Standing room only” and
“general admission” attendance
is prohibited.
3. Venues must clearly delineate
discrete sections and assign
seating so that the number of
attendees in that section do not
exceed the lesser of 250

94a

4.

5.
6.

7.

8.

attendees, or 50% of that
section’s total seating capacity.
Event staff may not provide
services to more than one
section delineated pursuant to
subsection 3, above.
Each section must be separated
from adjacent sections by a
minimum of 25 feet.
All social distancing requirements shall be maintained. This
provision shall not apply to
attendees within a single party.
No more than six persons may
be seated together in a single
party.
To the greatest extent practicable, attendees in each section
should be isolated from
attendees in other sections by
utilizing separate entrances,
exits, and facilities, or
staggering entrance and egress
by section.
Plans for events at facilities
regulated by the Gaming
Control Board (“GCB”) must be
submitted to and approved by
the GCB prior to the event,
pursuant to guidelines that
shall be promulgated by the
GCB. Prior to submission, plans
must be reviewed by the local
health authority for confirma-

95a
tion that it complies with all
applicable health and safety
standards and will not place an
unacceptable burden on the
local health infrastructure.
9. Plans for events regulated by
the Nevada State Athletic
Commission (“NSAC”) must be
submitted to and approved by
the NSAC prior to the event,
pursuant to guidelines that
shall be promulgated by the
NSAC. Prior to submission,
plans must be reviewed by the
applicable local health authority
for confirmation that it complies
with all applicable health and
safety standards and will not
place an unacceptable burden
on the local health
infrastructure.
10. All other events at venues with
fixed seating capacity of 2,500
or greater must be submitted to
and approved by the Nevada
Division of Business and
Industry (“B&I”) prior to the
event, pursuant to guidelines
that shall be promulgated by
the Division. Prior to submission to the Division, plans
must be reviewed by the
applicable local health authority
for confirmation that it complies

96a
with all applicable health and
safety standards and will not
place an unacceptable burden
on the local health
infrastructure.
Venues with a listed fire code capacity
of fewer than 2,500 may permit public
attendance at live events subject to
the following provisions:
1. Attendance by the public may
not exceed the lesser of 250
attendees or 50% of that
gathering space’s listed fire code
capacity.
2. Attendance by the public at live
entertainment performances
shall require all attendees to be
seated. “Standing room only”
attendance is prohibited.
Venues hosting live entertainment performances shall
maintain a minimum
separation of at least 25 feet
between the artists and the
audience. This provision is
applicable to performances
subject to live entertainment
taxes pursuant to NRS 368A
and shall not extend to ambient
music to create or enhance a
mood or atmosphere that is
incidental or ancillary to the
activity or location.

97a
3. For all other events other than
live entertainment performances, seating is not required,
but social distancing requirements must be maintained at
all times.
SECTION Section 10 and Section 11 of Directive
12:
30 are hereby terminated. Effective
12:01 a.m. on October 1, 2020,
restaurants, food establishments,
breweries, distilleries, and wineries
may utilize tables and serve patrons
within the bar area. Establishments
operating under this provision shall
abide by the following provisions:
1. The maximum occupancy of
these establishments shall not
exceed 50% of the listed fire
code capacity at any given time.
2. Tables, booths, or seats must be
spaced, or customers seated a
minimum of six feet apart from
other customers not in the same
party. Parties larger than six
persons may not be seated
together for onsite dining.
3. All standing and open
congregation areas that are not
necessary for the preparation
and service of food or beverages
shall be closed, including but
not limited to billiards, card
playing, pinball games, arcade

98a

4.

5.

6.

7.

games, darts, dancing, and
standing.
Customers sitting at a table or
booth must only be served via
table service and may not order
from the bar top area.
Customers may sit at and be
served at bar tops only if bar
top seating is limited such that
barstools are spaced a minimum
of six feet apart from other
barstools of other customers not
in the same party. Establishments are encouraged to limit
bar top parties to no more than
two persons per party.
Customers waiting to dine
onsite must wait outside the
establishment until they can be
seated and must practice social
distancing by maintaining a
minimum of six feet of
separation between customers
not residing in the same
household or in the same party.
Establishments shall require
employees to wear face
coverings and abide by all other
face covering provisions of
Directive 024. Patrons must
wear face coverings when not
seated at tables, booths, or bar
tops.

99a
8. Buffets, cafeterias, and selfserve dining facilities shall
remain closed until further
notice.
SECTION Effective 12:01 a.m. on October 1,
13:
2020, conventions, trade shows,
conferences, professional or educational seminars, large business
meetings or corporate retreats, and
other similar event activities may
resume, subject to the limitations of
this Section. Events pursuant to this
Section are limited to no more than
1,000 attendees per venue or site.
Events with greater than 250
attendees are subject to the following
additional provisions:
1. Events hosting greater than 250
attendees must provide distinct
gathering spaces whereby the
occupancy per gathering space
shall not exceed the lesser of
250 attendees or 50% of that
gathering space’s listed fire code
capacity.
2. Event planners hosting events
at facilities regulated by the
Gaming Control Board (“GCB”)
must submit Preparedness and
Safety plans to the GCB for
approval prior to the event,
pursuant to guidelines and
criteria that shall be promulgated by the GCB. Prior to

100a
submission to the GCB, plans
must be reviewed by the
applicable local health authority
for confirmation that it complies
with all applicable health and
safety standards and will not
place an unacceptable burden
on the local health infrastructure.
3. Event planners hosting events
at facilities not regulated by the
GCB must submit Preparedness
and Safety plans to the Nevada
Department of Business and
Industry (“B&I”) for approval
prior to the event, pursuant to
guidelines and criteria that
shall be promulgated by B&I.
Prior to submission to B&I,
plans must be reviewed by the
applicable local health authority
for confirmation that it complies
with all applicable health and
safety standards and will not
place an unacceptable burden
on the local health infrastructure.
4. The guidelines promulgated by
the GCB and B&I shall include,
at minimum, protocols for
arrival procedures, floor plan
restrictions, food and beverage
limitations, staffing procedures,
sanitation procedures, face

101a
covering requirements, and
signage requirements.
SECTION Section 32 of Directive 021 is hereby
14:
terminated. Effective 12:01 a.m. on
October 1, 2020, occupancy in classrooms and instructional areas at trade
schools, and technical schools
operating pursuant to this Section
shall be limited to the lesser of 250
persons or 50% of maximum
occupancy of based on listed fire code
capacity and must abide by all
guidelines promulgated by the Nevada
Division of Business and Industry or
its constituent agencies. These
provisions shall not be construed to
limit the operation plans of Nevada
System of Higher Education
institutions, schools under county
school districts, charter schools, and
the University School for Profoundly
Gifted Students.
SECTION Section 32 of Directive 021 is hereby
15:
terminated. Effective 12:01 a.m. on
October 1, 2020, museums, art
galleries, zoos, and aquariums
operating pursuant to this Section
shall be subjects to the limitations
provided in Section 10 of this
Directive. Interactive exhibits which
encourage touching must remain
closed and inaccessible to the public.
SECTION Section 33 of Directive 021 is hereby
16:
terminated.

102a
SECTION Section 7 of Directive 30 is hereby
17:
amended to strike the provision that
the Mitigation Task Force meet on a
weekly basis. Effective 12:01 a.m. on
October 1, 2020, the Mitigation Task
Force shall meet at the call of the
Chair. All other duties charged to the
Mitigation Task Force shall remain in
effect as provided by this Directive
and by Directive 030.
SECTION Section 3 of Directive 007 is hereby
18:
terminated. Effective 12:01 a.m. on
October 1, 2020, local governments
may allow public access to playground
equipment if, in consultation with
their local health authority, they
determine it is safe to do so.
SECTION Section 6 of Directive 013 is hereby
19:
terminated. Effective 12:01 a.m. on
October 1, 2020, in person showings
and open houses of single family and
multi-family residences currently
occupied and on the market for sale,
may resume, subject to the limitations
set forth in this Section:
1. Showings and open houses of
properties may not take place
with the occupant present.
2. Showings of properties are
limited to one prospective buyer
and one real estate professional
for both the seller and prospective buyer at a time. For the
purposes of this provision, “a

103a

3.

4.

5.

6.

7.

prospective buyer” includes the
buyer and the buyer’s spouse,
domestic partner, business
partner, or family members.
Sellers conducting an open
house are responsible for
ensuring that there will not be
more than one prospective
buyer viewing a property at any
given time. This may require
having an individual present to
properly meter prospective
buyers entering an open house.
Sellers are encouraged to utilize
appointments for in-person
showings and open houses to
the greatest extent practicable.
Real estate professionals are
encouraged to utilize threedimensional interactive
property scans, virtual tours,
and virtual staging to the
greatest extent possible.
Real estate professionals are
encouraged to avoid in-person
transactions and services to the
greatest extent practicable.
Real estate professionals must
require all participants at inperson showings and open
houses to wear face coverings at
all times pursuant to Directive
024 and must follow CDC

104a
guidelines for in-person
showings and open houses.
SECTION This Directive shall remain in effect
20:
until terminated by a subsequent
Directive promulgated pursuant to the
March 12, 2020 Declaration of
Emergency to facilitate the State’s
response to the COVID-19 pandemic
or upon dissolution or lifting of the
Declaration of Emergency.
EMERGENCY DIRECTIVE 033 HEREBY ORDERS
THAT:

